<html>
<title> - THE COMPREHENSIVE EVERGLADES RESTORATION PLAN AND WATER MANAGEMENT IN FLORIDA</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


 THE COMPREHENSIVE EVERGLADES RESTORATION PLAN AND WATER MANAGEMENT IN 
                                FLORIDA

=======================================================================

                                (116-65)

                             REMOTE HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                    WATER RESOURCES AND ENVIRONMENT

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             SECOND SESSION
                               __________

                           SEPTEMBER 24, 2020
                               __________

                       Printed for the use of the
             Committee on Transportation and Infrastructure
             
             
                  [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]             


     Available online at: https://www.govinfo.gov/committee/house-
     transportation?path=/browsecommittee/chamber/house/committee/
                             transportation
                             
                              ___________

                    U.S. GOVERNMENT PUBLISHING OFFICE
                    
43-460 PDF                 WASHINGTON : 2021                                
                             
                             

             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

  PETER A. DeFAZIO, Oregon, Chair
SAM GRAVES, Missouri                 ELEANOR HOLMES NORTON,
DON YOUNG, Alaska                      District of Columbia
ERIC A. ``RICK'' CRAWFORD, Arkansas  EDDIE BERNICE JOHNSON, Texas
BOB GIBBS, Ohio                      RICK LARSEN, Washington
DANIEL WEBSTER, Florida              GRACE F. NAPOLITANO, California
THOMAS MASSIE, Kentucky              DANIEL LIPINSKI, Illinois
SCOTT PERRY, Pennsylvania            STEVE COHEN, Tennessee
RODNEY DAVIS, Illinois               ALBIO SIRES, New Jersey
ROB WOODALL, Georgia                 JOHN GARAMENDI, California
JOHN KATKO, New York                 HENRY C. ``HANK'' JOHNSON, Jr., 
BRIAN BABIN, Texas                   Georgia
GARRET GRAVES, Louisiana             ANDRE CARSON, Indiana
DAVID ROUZER, North Carolina         DINA TITUS, Nevada
MIKE BOST, Illinois                  SEAN PATRICK MALONEY, New York
RANDY K. WEBER, Sr., Texas           JARED HUFFMAN, California
DOUG LaMALFA, California             JULIA BROWNLEY, California
BRUCE WESTERMAN, Arkansas            FREDERICA S. WILSON, Florida
LLOYD SMUCKER, Pennsylvania          DONALD M. PAYNE, Jr., New Jersey
PAUL MITCHELL, Michigan              ALAN S. LOWENTHAL, California
BRIAN J. MAST, Florida               MARK DeSAULNIER, California
MIKE GALLAGHER, Wisconsin            STACEY E. PLASKETT, Virgin Islands
GARY J. PALMER, Alabama              STEPHEN F. LYNCH, Massachusetts
BRIAN K. FITZPATRICK, Pennsylvania   SALUD O. CARBAJAL, California, 
JENNIFFER GONZALEZ-COLON,            Vice Chair
  Puerto Rico                        ANTHONY G. BROWN, Maryland
TROY BALDERSON, Ohio                 ADRIANO ESPAILLAT, New York
ROSS SPANO, Florida                  TOM MALINOWSKI, New Jersey
PETE STAUBER, Minnesota              GREG STANTON, Arizona
CAROL D. MILLER, West Virginia       DEBBIE MUCARSEL-POWELL, Florida
GREG PENCE, Indiana                  LIZZIE FLETCHER, Texas
MIKE GARCIA, California              COLIN Z. ALLRED, Texas
                                     SHARICE DAVIDS, Kansas
                                     ABBY FINKENAUER, Iowa
                                     JESUS G. ``CHUY'' GARCIA, Illinois
                                     ANTONIO DELGADO, New York
                                     CHRIS PAPPAS, New Hampshire
                                     ANGIE CRAIG, Minnesota
                                     HARLEY ROUDA, California
                                     CONOR LAMB, Pennsylvania


            Subcommittee on Water Resources and Environment

 GRACE F. NAPOLITANO, California, 
               Chair
BRUCE WESTERMAN, Arkansas            DEBBIE MUCARSEL-POWELL, Florida, 
DANIEL WEBSTER, Florida              Vice Chair
THOMAS MASSIE, Kentucky              EDDIE BERNICE JOHNSON, Texas
ROB WOODALL, Georgia                 JOHN GARAMENDI, California
BRIAN BABIN, Texas                   JARED HUFFMAN, California
GARRET GRAVES, Louisiana             ALAN S. LOWENTHAL, California
DAVID ROUZER, North Carolina         SALUD O. CARBAJAL, California
MIKE BOST, Illinois                  ADRIANO ESPAILLAT, New York
RANDY K. WEBER, Sr., Texas           LIZZIE FLETCHER, Texas
DOUG LaMALFA, California             ABBY FINKENAUER, Iowa
BRIAN J. MAST, Florida               ANTONIO DELGADO, New York
GARY J. PALMER, Alabama              CHRIS PAPPAS, New Hampshire
JENNIFFER GONZALEZ-COLON,            ANGIE CRAIG, Minnesota
  Puerto Rico                        HARLEY ROUDA, California
SAM GRAVES, Missouri (Ex Officio)    FREDERICA S. WILSON, Florida
                                     STEPHEN F. LYNCH, Massachusetts
                                     TOM MALINOWSKI, New Jersey
                                     PETER A. DeFAZIO, Oregon (Ex 
                                     Officio)



                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................   vii

                 STATEMENTS OF MEMBERS OF THE COMMITTEE

Hon. Grace F. Napolitano, a Representative in Congress from the 
  State of California, and Chairwoman, Subcommittee on Water 
  Resources and Environment:

    Opening statement............................................     1
    Prepared statement...........................................     3
Hon. Bruce Westerman, a Representative in Congress from the State 
  of Arkansas, and Ranking Member, Subcommittee on Water 
  Resources and Environment:

    Opening statement............................................     4
    Prepared statement...........................................     5
Hon. Peter A. DeFazio, a Representative in Congress from the 
  State of Oregon, and Chairman, Committee on Transportation and 
  Infrastructure:

    Opening statement............................................     5
    Prepared statement...........................................     6
Hon. Debbie Mucarsel-Powell, a Representative in Congress from 
  the State of Florida, and Vice Chair, Subcommittee on Water 
  Resources and Environment, prepared statement..................    29
Hon. Eddie Bernice Johnson, a Representative in Congress from the 
  State of Texas, prepared statement.............................    33
Hon. Sam Graves, a Representative in Congress from the State of 
  Missouri, and Ranking Member, Committee on Transportation and 
  Infrastructure, prepared statement.............................    49

                               WITNESSES

Noah Valenstein, Secretary, Florida Department of Environmental 
  Protection:

    Oral statement...............................................     7
    Prepared statement...........................................     9
Hon. Chauncey P. Goss II, Chairman, Governing Board, South 
  Florida Water Management District:

    Oral statement...............................................    11
    Prepared statement...........................................    12
Elizabeth Jolin, Owner, Bay and Reef Company of the Florida Keys:

    Oral statement...............................................    14
    Prepared statement...........................................    15
Gary Ritter, Assistant Director of Government and Community 
  Affairs, Florida Farm Bureau Federation:

    Oral statement...............................................    16
    Prepared statement...........................................    17
Shannon Estenoz, Chief Operating Officer and Vice President of 
  Policy and Public Affairs, The Everglades Foundation:

    Oral statement...............................................    21
    Prepared statement...........................................    22

                       SUBMISSIONS FOR THE RECORD

Slide submitted for the Record by Hon. Debbie Mucarsel-Powell....    30
Submissions for the Record by Hon. Brian J. Mast:

    Email of July 15, 2020, from Ryan Weston, Florida and Texas 
      Sugar Cane Growers.........................................    38
    Bipartisan Agreement in Drafting the Water Resources 
      Development Act of 2020....................................    38
    Advisory, ``Recommended Human Health Recreational Ambient 
      Water Quality Criteria or Swimming Advisories for 
      Microcystins and Cylindrospermopsin,'' U.S. Environmental 
      Protection Agency, Office of Water, EPA 822-F-19-001, May 
      2019.......................................................    49
    Hearing Transcript Excerpt, ``Water Resources Development 
      Acts: Status of Implementation and Assessing Future 
      Needs,'' July 10, 2019, Subcommittee on Water Resources and 
      Environment of the Committee on Transportation and 
      Infrastructure.............................................    52
Statement of Eve Samples, Executive Director, Friends of the 
  Everglades, Submitted for the Record by Hon. Grace F. 
  Napolitano.....................................................    44
Submissions for the Record by Hon. Bruce Westerman:

    Letter of October 7, 2020, from Todd Hiteshew, Chair, 
      Southeast Florida Utilities Council........................    55
    Letter of October 7, 2020, from Keith A. James, Mayor, City 
      of West Palm Beach.........................................    56
Letter of Supplemental Testimony of October 2, 2020, from Gary J. 
  Ritter, Assistant Director of Government and Community Affairs, 
  Florida Farm Bureau Federation.................................    57
Letter of September 23, 2020, from the Energy Producing States 
  Coalition......................................................    60

                                APPENDIX

Questions from Hon. Garret Graves to Hon. Chauncey P. Goss II, 
  Chairman, Governing Board, South Florida Water Management 
  District.......................................................    61
Questions from Hon. Garret Graves to Shannon Estenoz, Chief 
  Operating Officer and Vice President of Policy and Public 
  Affairs, The Everglades Foundation.............................    62

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                           September 21, 2020

    SUMMARY OF SUBJECT MATTER

    TO:      LMembers, Subcommittee on Water Resources and 
Environment
    FROM:  LStaff, Subcommittee on Water Resources and 
Environment
    RE:      LSubcommittee Hearing on ``The Comprehensive 
Everglades Restoration Plan and Water Management in Florida''
_______________________________________________________________________


                                PURPOSE

    The Subcommittee on Water Resources and Environment will 
meet in open session on Thursday, September 24, 2020, at 11:00 
a.m. in the Rayburn House Office Building, Room 2167, and by 
video conferencing via Cisco Webex, to receive testimony on 
``The Comprehensive Everglades Restoration Plan and Water 
Management in Florida.'' The purpose of this hearing is to 
examine various perspectives on water management and operations 
as part of the Comprehensive Everglades Restoration Plan 
(CERP), as well as current challenges to the system including 
water quality, cyanobacteria blooms, and impacts to the 
Everglades National Park and the Florida Bay estuary.

                               BACKGROUND

COMPREHENSIVE EVERGLADES RESTORATION PLAN (CERP)

    The Comprehensive Everglades Restoration Plan (CERP) was 
enacted into law as part of the Water Resources Development Act 
(WRDA) of 2000 (P.L. 106-541). CERP is the largest ecosystem 
restoration project in the Nation, covering 16 counties over an 
18,000 square mile area in Central and South Florida.\1\ CERP 
serves as the framework for the State and Federal partnership 
in restoring the Everglades while enhancing water supplies and 
maintaining flood mitigation. This is done through a series of 
operational changes and projects that improve the timing, 
distribution, quantity, and quality of the water delivery to 
the Florida Everglades, including flows from Lake Okeechobee 
(see Figure 1).
---------------------------------------------------------------------------
    \1\ https://www.saj.usace.army.mil/Missions/Environmental/
Ecosystem-Restoration/Integrated-Delivery-Schedule/.
---------------------------------------------------------------------------

FIGURE 1: HISTORIC AND RESTORED WATER FLOW RELATED TO FLORIDA 
                    EVERGLADES

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
                    
Figure 1: Water flow in the Everglades under (a) historical conditions, 
 (b) current conditions, and (c) conditions envisioned upon completion 
        of the Comprehensive Everglades Restoration Plan (CERP).
 SOURCE: Graphics provided by USACE, Jacksonville District (reproduced 
    from National Research Council, ``Progress Toward Restoring The 
           Everglades: The Fifth Biennial Review (2014)'' \2\

    Originally,\ \ CERP was intended to include 60 projects to 
be completed over 30 years.\3\ Each of those projects must be 
studied by the U.S. Army Corps of Engineers (USACE or ``the 
Corps'') before being submitted to Congress for authorization. 
The Integrated Delivery Schedule \4\ outlines the sequencing 
strategy for planning, design, and construction of CERP 
projects. The Corps is the Federal agency for CERP projects, 
and the South Florida Water Management District (SFWMD) is the 
non-Federal sponsor for the State.\5\ CERP projects are cost 
shared at 50-50 with the Federal government and the SFWMD.
---------------------------------------------------------------------------
    \2\ https://www.nap.edu/catalog/18809/progress-toward-restoring-
the-everglades-the-fifth-biennial-review-2014.
    \3\ https://www.crs.gov/reports/pdf/IF11336.
    \4\ https://usace.contentdm.oclc.org/utils/getfile/collection/
p16021coll11/id/4143.
    \5\ The Department of the Interior (DOI) also has several important 
responsibilities in the management, restoration, and preservation of 
the Everglades, including as the lead federal agency for the Modified 
Water Deliveries (MWD) project. The National Park Service (NPS), Office 
of Everglades Restoration Initiatives, Fish and Wildlife Service (FWS), 
and U.S. Geological Survey (USGS) all participate. The Secretary of the 
Interior is also Chair of the South Florida Ecosystem Restoration Task 
Force.
---------------------------------------------------------------------------
    Since the passage of CERP in 2000, nine non-pilot CERP 
projects have been Congressionally authorized and are awaiting 
construction, are in construction, or are completed. While some 
project benefits like ecosystem restoration have been realized, 
significant progress on long-term restoration goals for the 
Florida Everglades is far from complete. Table 1 below provides 
the status of CERP projects.

          Table 1. Status of Recent CERP Projects \6\
---------------------------------------------------------------------------

    \6\ https://www.crs.gov/reports/pdf/IF11336.

------------------------------------------------------------------------
                                     Construction
          Project Name               Authorization          Status
------------------------------------------------------------------------
Site 1 Impoundment..............  WRDA 2007.........  Phase 1 completed
                                                       Phase II on hold
Picayune Strand.................  WRDA 2007.........  Under construction
Indian River Lagoon-South.......  WRDA 2007.........  Under construction
C-43 West Storage Basin.........  WRRDA 2014........  Under construction
C-111 Spreader Canal............  WRRDA 2014........  Complete
Broward County Water Preserve     WRRDA 2014........  Under construction
 Areas.
Biscayne Bay Coastal Wetlands...  WRRDA 2014........  Under construction
Central Everglades Planning       WRDA 2016.........  Under construction
 Project.
Everglades Agricultural Area A-2  WRDA 2018.........  Awaiting
 Reservoir Storage.                                    construction
Loxahatchee River Watershed       Awaiting            Study completed
 Project.                          authorization.
Western Everglades Restoration    Awaiting            Study in progress
 Project.                          authorization.
Lake Okeechobee Watershed         Awaiting            Study in progress
 Project.                          authorization.
------------------------------------------------------------------------

CENTRAL EVERGLADES PLANNING PROJECT (CEPP)

    A significant milestone for CERP is the authorization of 
the Central Everglades Planning Project (CEPP) as part of WRDA 
2016 (P.L. 115-270). CEPP combines key CERP components into a 
comprehensive project that includes water storage, conveyance, 
and decompartmentalization in the heart of the Everglades. As a 
result, CEPP focuses on restoring the historic flows from Lake 
Okeechobee south to the Central Everglades Ecosystem--achieving 
a principal goal of the CERP while also helping limit releases 
to northern estuaries around Lake Okeechobee.

CERP, CEPP, AND THE WATER RESOURCES DEVELOPMENT ACT (WRDA) OF 2020

    On July 13, 2020, Chair Peter A. DeFazio (D-OR), Ranking 
Member Sam Graves (R-MO), Subcommittee on Water Resources and 
Environment Chair Grace F. Napolitano (D-CA), and Subcommittee 
on Water Resources and Environment Ranking Member Bruce 
Westerman (R-AR), introduced H.R. 7575, the Water Resources 
Development Act of 2020, to authorize projects and studies for 
the Corps. H.R. 7575 passed the Committee by voice vote on July 
24, 2020, and passed the U.S. House of Representatives on 
suspension on July 29, 2020. H.R. 7575 includes several 
provisions that authorize new projects, amend existing 
projects, and clarify congressional intent for projects related 
to the restoration of the Florida Everglades.
    <bullet> LSection 202(b)(4) expedites completion of a post-
authorization change report for the Comprehensive Everglades 
Restoration Plan, Caloosahatchee River C-43, West Basin Storage 
22 Reservoir, Florida.
    <bullet> LSection 321 clarifies that the Corps is directed 
to carry out the Everglades Agricultural Area modification 
(authorized in WRDA 2018) as part of the ongoing Central 
Everglades Planning Project.
    <bullet> LSection 401(5) authorizes the Chief's Report for 
the Comprehensive Everglades Restoration Plan, Loxahatchee 
River Watershed Restoration Project, Martin and Palm Beach 
Counties, Florida.

FLORIDA WATER MANAGEMENT

    The State of Florida experiences periods of extremely wet 
and extremely dry conditions. The Corps is required to operate 
Lake Okeechobee under these conditions, and to balance the 
authorized purposes of flood control, water supply, and 
ecosystem restoration.

DRY SEASON AND IMPACTS TO INDUSTRY AND ECOSYSTEM

    Florida's dry season typically occurs from November to 
April. This year, March was the driest month with an average of 
just 0.24 inches of rain--the driest in the 89 years of 
record.\7\ Rainfall in May and June, however, eliminated 
drought conditions across the State. Thus far this year, there 
have been no significant Lake Okeechobee operational impacts on 
water management objectives around the region. Droughts, 
however, do occur and can significantly impact water management 
across various industries and communities across the State, the 
Everglades National Park, and further south to Florida Bay.
---------------------------------------------------------------------------
    \7\ https://www.sfwmd.gov/weather-radar/rainfall-historical/
monthly.
---------------------------------------------------------------------------
    In the 2014-2015 water year, Florida experienced prolonged 
dry conditions. This impacted water supplies for cities and 
municipalities, and the water supply for a multi-billion dollar 
agricultural industry.\8\ Farther south, the Florida Bay 
ecosystem, which makes up one third of the Everglades National 
Park, depends on freshwater inputs coming equally from rainfall 
and historic overland flows and runoff.\9\ In 2015, the State 
experienced a large-scale, rapid 40,000-acre seagrass die-off 
in the Florida Bay ecosystem.\10\ The die-off was abetted by 
the dry hydrologic conditions--the region only received half of 
the annual expected rainfall--coupled with the physical 
challenges of insufficient water being able to flow south 
through the Everglades system.
---------------------------------------------------------------------------
    \8\ https://floridastorms.org/2015/07/10/extreme-drought-declared-
in-south-florida/.
    \9\ https://www.sfwmd.gov/sites/default/files/documents/
graphic_florida_bay_drought_2014-2015.pdf.
    \10\ https://www.nps.gov/ever/learn/nature/upload/seagrass-
Dieoff_final_web_hi_res.pdf.
---------------------------------------------------------------------------

HIGH WATER OPERATIONS AND BLUE-GREEN ALGAE IN FLORIDA

    Florida's wet season typically occurs from May to October 
each year, and averages 54 inches of precipitation 
annually.\11\ Along with seasonal precipitation, Florida also 
experiences high volume water events like hurricanes and 
tropical storms. In high water events, the Corps works to lower 
water levels in Lake Okeechobee for flood control purposes 
through discharges, often west to the Caloosahatchee Canal, or 
east to the St. Lucie Canal. The Corps discharges water from 
the lake to also protect the structural integrity of the 
Herbert Hoover Dike--a 143-mile earthen dam that surrounds Lake 
Okeechobee to provide flood protection.\12\
---------------------------------------------------------------------------
    \11\ https://statesummaries.ncics.org/chapter/fl/.
    \12\ Since 2001, the Corps has invested over $900 million to 
rehabilitate the Herbert Hoover Dike to reduce flooding impacts, as a 
result of high lake levels, for a large area of South Florida.
---------------------------------------------------------------------------
    These discharges, however, can impact water quality on the 
lake, and create conflict between the often-overlapping Federal 
and State authorities and responsibilities for water management 
within Florida. For example, water quality and nutrient 
discharges are regulated by the State of Florida, while 
operation of the lake is a Federal Corps function. An example 
of when these two distinct authorities come to a head is when 
cyanobacteria is then spread into rivers, canals, and estuaries 
south and east of the lake.
    Cyanobacteria are microscopic organisms that live in water, 
feed off sunlight, and multiply quickly. Also known as blue-
green algae, or harmful algal blooms, they look like foam, 
scum, or thick coverings on water. They can be extremely 
harmful to humans, animals, and the environment. Blue-green 
algae blooms form as a result of an excess of nutrients such as 
nitrogen and phosphorus being present in water. These algal 
blooms usually form after stormwater from heavy rains wash 
contaminants in wastewater, urban runoff, and agricultural 
fertilizers into waterways. These blooms have occurred across 
the country, including recently in California, Ohio, New 
Jersey, and in Lake Okeechobee, Florida.\13\
---------------------------------------------------------------------------
    \13\ https://www.usgs.gov/search-map?search=cyanobacteria.
---------------------------------------------------------------------------
    The Corps currently operates the authorized purposes of 
Lake Okeechobee under its Lake Okeechobee Regulation Schedule 
(LORS)--established in 2007 to manage water volumes within, and 
flows out of, the lake.\14\ In WRDA 2018 (P.L. 115-270), 
Congress directed the Corps to complete a replacement to LORS, 
called the Lake Okeechobee System Operating Manual (LOSOM), in 
conjunction with the completion of the Herbert Hoover Dike 
rehabilitation project. LOSOM is currently under review by the 
Corps.
---------------------------------------------------------------------------
    \14\ https://www.saj.usace.army.mil/Portals/44/docs/h2omgmt/
LORSdocs/2008_LORS_WCP_mar2008.pdf.
---------------------------------------------------------------------------
    In 2018, blue-green algae blooms in Florida led to severe 
human health issues. This was coupled with a devastating red 
tide outbreak along the State's beaches that led to marine life 
die-off.\15\ As a result, the Corps proposed a deviation to 
LORS that would provide greater flexibility in the management 
of water to reduce the health risk associated with blue-green 
algae blooms.\16\ Blue-green algae have been detected in Lake 
Okeechobee this year, although no major algae releases 
occurred, partly as a result of reduced water discharges from 
the lake due to low Lake Okeechobee water levels.\17\
---------------------------------------------------------------------------
    \15\ ``Red tide'' is caused by karenia brevis, a type of algae that 
produces neurotoxins and the bloom of algae often turns the water red.
    \16\ https://usace.contentdm.oclc.org/utils/getfile/collection/
p16021coll7/id/14715.
    \17\ http://w3.saj.usace.army.mil/h2o/currentLL.shtml.
---------------------------------------------------------------------------

                               WITNESSES

    <bullet> LNoah Valenstein, Secretary, Florida Department of 
Environmental Protection
    <bullet> LThe Honorable Chauncey P. Goss II, Chairman, 
South Florida Water Management District Governing Board
    <bullet> LElizabeth Jolin, Captain, The Bay and Reef 
Company of the Florida Keys
    <bullet> LGary Ritter, Assistant Director of Government and 
Community Affairs, Florida Farm Bureau Federation
    <bullet> LShannon Estenoz, Vice President of Policy and 
Public Affairs, The Everglades Foundation

 
 THE COMPREHENSIVE EVERGLADES RESTORATION PLAN AND WATER MANAGEMENT IN 
                                FLORIDA

                              ----------                              


                      THURSDAY, SEPTEMBER 24, 2020

                  House of Representatives,
                    Subcommittee on Water Resources
                                   and Environment,
            Committee on Transportation and Infrastructure,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:59 a.m., in 
room 2167 Rayburn House Office Building and via Cisco Webex, 
Hon. Grace F. Napolitano (Chairwoman of the subcommittee) 
presiding.
    Mrs. Napolitano. Good morning. I call this hearing to 
order. Today's hearing focuses on the Comprehensive Everglades 
Restoration Plan, or better known as CERP, and will explore 
some of the long-term challenges in achieving the goals of the 
CERP.
    Let me begin by asking unanimous consent that the chair be 
authorized to declare recesses during the hearing.
    Without objection, so ordered.
    I also ask unanimous consent that the committee members not 
on the subcommittee be permitted to sit with the subcommittee 
at today's hearing, and ask questions.
    And, without objection, so ordered.
    As this is a hybrid hearing, I want to remind Members of 
the key regulations from the House Committee on Rules to ensure 
that this hearing goes smoothly.
    Members must be visible on screen for purposes of 
identification when joining the hearing. Members must also 
continue to use the video function of today's software 
platform, Cisco Webex, for the remainder of the time they are 
attending this hearing, unless experiencing connectivity issues 
or other technical problems.
    If a Member is experiencing connectivity issues or other 
technical problems, please inform committee staff as soon as 
possible, so you can receive assistance. A chat function is 
available for Members on the Cisco Webex platform for this 
purpose. Members can also call the committee's main phone line 
at (202) 225-4472 for technical assistance by phone. That is 
(202) 225-4472.
    Members may not also participate remotely in any other 
proceeding that may be occurring simultaneously.
    It is the responsibility of each Member seeking recognition 
to unmute their microphone prior to speaking. To avoid any 
inadvertent background noise, I request that every Member keep 
their microphone muted when not seeking recognition to speak. 
Should I hear any inadvertent background noise, I will request 
that that Member please mute their microphone.
    Finally, despite this being a hybrid hearing, I want to 
emphasize that all the standard rules of decorum apply. As the 
chair of today's hearing, I will make a good faith effort to 
provide every Member experiencing connectivity issues an 
opportunity to participate fully in the proceedings.
    Members will have the standard 5 minutes to ask questions.
    To insert a document into the record, please have your 
staff email it to the committee clerk, Mike Twinchek.
    This hearing is also being livestreamed for the public to 
view.
    Starting with an opening statement, as many Floridians 
already know, the word ``Okeechobee'' in the Seminole language 
means ``big water.'' Today we will be discussing the progress 
that has been made with the Federal, the State, the local, and 
nongovernment partners in the restoration of one of our 
Nation's ecological treasures, the Florida Everglades, since 
the enactment of the Comprehensive Everglades Restoration 
Program in 2000.
    We will hear from Members and stakeholders on what has been 
accomplished, and what is left to do. Key to the discussion, 
and at the heart of this ecosystem and project, is waterflows 
in and out of Lake Okeechobee.
    As a Californian, I am well aware of the challenges of 
managing the water systems for important but sometimes 
conflicting demands. Like Florida, California has wet seasons 
and dry seasons, mostly dry, and the management of water, 
including its timing, quality, and quantity, is important to 
the health of the ecosystem and to the economy.
    In meeting their often competing responsibilities for water 
management in the State of Florida, the Army Corps of 
Engineers, or Corps, must balance the flood control, the 
environmental restoration, the water supply, and other 
authorized purposes during both wet and dry seasons.
    When faced with too much water, the Corps seeks to manage 
the system to avoid flood events, and that would impact Florida 
communities by releasing water east and west from Lake 
Okeechobee, because the mechanisms to hold or send more water 
south are incomplete.
    This can lead to challenges like harmful algae blooms in 
the St. Lucie Canal, or to avoid dumping too much water to meet 
the community's water supply obligations within the State.
    Dry events can lead to not enough water heading south, 
including to the Everglades National Park and the Florida Bay. 
Five years ago, an extremely dry season and less water south 
contributed to the massive 40,000-acre seagrass die-off in the 
Florida Bay. The system is only now rebounding after 5 years.
    Vice Chair Mucarsel-Powell has already proven a tireless 
leader for the restoration of the Everglades and for the health 
of the Florida Bay.
    Thank you, Debbie, for hosting us last year in Islamorada, 
a great trip, where we were able to tour and see firsthand the 
work that has been done in the Everglades system.
    Twenty years ago, this committee gave the Corps a massive 
responsibility to try and restore the historic ``River of 
Grass'' that stretched from Lake Okeechobee to the southern tip 
of the State, and to do so within the context of a modern, 
economically vibrant, and diverse State of Florida.
    There have been many successes and a few setbacks along the 
way, but the goal of a comprehensive restoration of the Florida 
Everglades remains as important to the State as it ever has 
been. Today's conversation looks at this history, where things 
have gone well, and the work that remains to be done. We must 
continue to look for solutions to protect this natural 
ecological treasure.
    Thank you to our witnesses for being here today, albeit 
virtually, on this very important issue. And I look forward to 
your testimony.
    [Mrs. Napolitano's prepared statement follows:]

                                 <F-dash>
  Prepared Statement of Hon. Grace F. Napolitano, a Representative in 
Congress from the State of California, and Chairwoman, Subcommittee on 
                    Water Resources and Environment
    As many Floridians already know, the word ``Okeechobee'' in the 
Seminole language means ``Big Water.'' Today we will be discussing the 
progress that has been made with federal, state, local, and non-
governmental partners in the restoration of one of our national 
ecological treasures, the Florida Everglades, since enactment of the 
Comprehensive Everglades Restoration Program in 2000.
    We will hear from Members and stakeholders on what has been 
accomplished and what is left to do. Key to this discussion, and at the 
heart of this ecosystem and project, is water flows into and out of 
Lake Okeechobee.
    As a Californian, I am well aware of the challenges of managing a 
water system for important but sometimes conflicting demands. Like 
Florida, California has wet seasons and dry seasons, and the management 
of water, including its timing, quantity, and quality is important to 
the health of the ecosystem, and the economy.
    In meeting their often-competing responsibilities for water 
management in the State of Florida, the Army Corps of Engineers must 
balance the flood control, environmental restoration, water supply, and 
other authorized purposes during both wet and dry seasons.
    When faced with too much water, the Corps seeks to manage the 
system to avoid flood events that would impact Florida communities by 
releasing water east and west from Lake Okeechobee, because the 
mechanisms to hold or send more water south, is incomplete. This can 
lead to challenges like harmful algal blooms in the St. Lucie Canal, or 
to avoid dumping too much water to meet its water supply obligations 
within the State.
    Dry events can lead to not enough water heading south, including to 
the Everglades National Park and the Florida Bay. Five years ago, an 
extremely dry season and less water south contributed to the massive 
40,000-acre sea grass die off in the Florida Bay. The system is only 
now rebounding after five years.
    Vice Chair Mucarsel-Powell is an already proven and tireless leader 
for the restoration of the Everglades and for the health of the Florida 
Bay. Thank you, Debbie for hosting us last year in Islamorada, where we 
were able to tour and see firsthand the work that has been done in the 
Everglades System.
    Twenty years ago, this Committee gave the Corps a massive 
responsibility to try and restore the historic ``River of Grass'' that 
stretched from Lake Okeechobee to the southern tip of the State, and to 
do so within the context of a modern, economically-vibrant, and diverse 
State of Florida.
    There have been many successes, and a few setbacks along the way, 
but the goal of a comprehensive restoration of the Florida Everglades 
remains as important to the State as it ever has been. Today's 
conversation looks at this history, where things have gone well, and 
the work that remains. We must continue to look for solutions to 
protect this national ecological treasure.
    Thank you to our witnesses for being here today, albeit virtually, 
on this very important issue. I look forward to your testimony.
    Mrs. Napolitano. And at this time I am pleased to yield to 
my colleague, my friend, the ranking member of the 
subcommittee, Mr. Westerman, for his thoughts.
    Mr. Westerman. Good morning, Chairwoman Napolitano. It is 
good to see you. It is not the same as having you here on the 
dais. I can tell you there are not as many candies and goodies 
floating around on the dais without you here. But nonetheless, 
it is good to see you on screen. And thank you for holding this 
important hearing.
    And thank you to our witnesses for Zooming--I think that is 
an acceptable word in today's world--to discuss the water 
management and environmental restoration activities of the Army 
Corps of Engineers in Florida.
    Florida, like many other States across the country, faces 
unique challenges with regards to water management, water 
quality, including harmful algal blooms, and environmental 
restoration efforts. To address these challenges, this 
committee authorized the Comprehensive Everglades Restoration 
Plan, or CERP, 20 years ago as part of the Water Resources 
Development Act of 2000. It served as the largest ecosystem 
restoration project in the Nation, covering 16 counties over an 
18,000-square-mile area in central and south Florida.
    The CERP framework seeks to restore the Everglades while 
balancing water supply and flood mitigation for communities and 
stakeholders throughout the State. Individual CERP projects, 
working as part of a system, govern the timing, distribution, 
quantity, and quality of the water around central and south 
Florida, including from Lake Okeechobee. This is an immense and 
complex undertaking. Twenty years later, nine projects have 
been congressionally authorized, with more on the way.
    After 20 years, it seems appropriate that we look back and 
examine the progress made thus far, hear from key stakeholders, 
and evaluate future challenges and solutions.
    Additionally, H.R. 7575, or WRDA 2020, was passed out of 
committee in July, and passed the House of Representatives on 
suspension later that month. There are several provisions 
included in this bill that authorize new projects, amend 
existing projects, and clarify congressional intent for 
projects related to water management and restoration of the 
Florida Everglades. It is my hope we finalize this bill and 
send it to the President's desk this year.
    Finally, I want to acknowledge the hard work of 
Representative Brian Mast, whose district has been severely 
impacted by harmful algal blooms. I also want to acknowledge 
Representatives Webster and Spano for their work on behalf of 
their constituents in addressing water management issues in 
Florida.
    I look forward to hearing constructive ideas from our 
witnesses today on addressing Florida's water resources and 
infrastructure needs, and I yield back.
    [Mr. Westerman's prepared statement follows:]
                                 <F-dash>
    Prepared Statement of Hon. Bruce Westerman, a Representative in 
 Congress from the State of Arkansas, and Ranking Member, Subcommittee 
                   on Water Resources and Environment
    Thank you, Chairwoman Napolitano, for holding this important 
hearing, and thank you to our witnesses for being here today to discuss 
the water management and environmental restoration activities of the 
Army Corps of Engineers in Florida.
    Florida, like many other states across the country, faces unique 
challenges with regards to water management, environmental restoration 
efforts, and water quality--including harmful algal blooms. To address 
these challenges, this Committee authorized the Comprehensive 
Everglades Restoration Plan (or CERP) 20 years ago as part of the Water 
Resources Development Act (WRDA) of 2000.
    CERP is the largest ecosystem restoration project in the Nation, 
covering 16 counties over an 18,000 square mile area in Central and 
South Florida. The CERP framework seeks to restore the Everglades while 
balancing water supply and flood mitigation for communities and 
stakeholders throughout the state. Individual CERP projects, working as 
part of a system, govern the timing, distribution, quantity, and 
quality of the water around central and south Florida, including from 
Lake Okeechobee. This is an immense and complex undertaking. Twenty 
years later, nine projects have been Congressionally authorized with 
more on the way.
    After 20 years, it seems appropriate that we look back and examine 
the progress made thus far, hear from key stakeholders, and evaluate 
future challenges and solutions.
    Additionally, H.R. 7575, or WRDA 2020, was passed out of Committee 
in July, and passed the House of Representatives on suspension later 
that month. There are several provisions included in this bill that 
authorize new projects, amend existing projects, and clarify 
Congressional intent for projects related to water management and 
restoration of the Florida Everglades. It is my hope we finalize this 
bill and send it to the President's desk this year.
    Finally, I want to acknowledge the hard work of Representative 
Brian Mast, whose district has been severely impacted by harmful algal 
blooms. I also want to acknowledge Representatives Webster and Spano 
for their work on behalf of their constituents in addressing water 
management issues in Florida.
    I look forward to hearing constructive ideas from our witnesses 
today on addressing Florida's water resources infrastructure needs.

    Mrs. Napolitano. Is Mr. DeFazio present?
    Mr. DeFazio. I am present. Can't you see me?
    Mrs. Napolitano. Mr. DeFazio, you have 5 minutes, sir. 
Thank you.
    Mr. DeFazio. Thank you. I am here physically, I guess not 
virtually. Thank you, Chair Napolitano, for convening this 
important hearing.
    And I would also like to recognize the tremendous 
contributions of our subcommittee vice chair, Ms. Mucarsel-
Powell, her tireless work and leadership on the ecological 
restoration of the Everglades and the Florida Bay.
    I visited several times. They were all--twice when I was on 
the Natural Resources Committee--focused on the Everglades 
themselves. And once when I was the ranking Democrat on the 
Highways and Transit Subcommittee about 10 years ago, when we 
were examining issues regarding infrastructure that needed to 
be modified and relocated. So I am quite familiar with the 
problems there.
    We have been trying for quite some time to move this 
forward in a major way to restore the greatest, most diverse, 
ecological wetland system in the world, in my opinion.
    Many, many years ago on the Natural Resources Committee, we 
passed legislation that we thought by now would be 
significantly implemented, and the Everglades would be on their 
way back to pristine health. Unfortunately, that is not the 
case. There is still much to be done.
    The Corps of Engineers, Department of the Interior, and the 
State of Florida have a lot more to do to restore it. And the 
Comprehensive Everglades Restoration Plan is, at this point, 
just a promise, and not yet fulfilled.
    H.R. 7575, this year's Water Resources Development Act of 
2020, will continue the work on Florida water, and in restoring 
the Everglades, particularly at the urging of Representative 
Mucarsel-Powell, with several CERP projects included in the 
legislation. I am proud of the bipartisan work that was done on 
WRDA 2020. It was unanimously approved by the House in July. I 
am not aware of another major significant bill of substance 
that has passed this House in this acrimonious atmosphere 
unanimously. I think Members from every district recognized the 
need for these investments.
    I particularly want to thank Representative Sam Graves for 
his help with that, and we are attempting to work our way 
through the Senate at this point in time. The Senate doesn't do 
much except confirm judges these days, but we have some hope 
that we can get the WRDA bill done, hopefully even before 
Congress adjourns for the election. If not then, certainly in 
the lameduck session.
    With that, I look forward to hearing from the witnesses and 
I yield back the balance of my time.
    [Mr. DeFazio's prepared statement follows:]

                                 <F-dash>
   Prepared Statement of Hon. Peter A. DeFazio, a Representative in 
      Congress from the State of Oregon, and Chair, Committee on 
                   Transportation and Infrastructure
    Thank you, Chairwoman Napolitano, for convening today's hearing on 
Florida water. I would also like to recognize Subcommittee Vice Chair 
Mucarsel-Powell's tireless work and leadership on ecological 
restoration of the Everglades and the Florida Bay.
    Congress established the Everglades National Park in 1934, which 
largely encompasses the South Florida ecosystem. It was clear then as 
it is now that few other places in the country and in the world could 
rival the Everglades in its ecological diversity and natural splendor. 
Tribal communities, like the Miccosukee Tribe and the Seminole Tribe 
have called this region home for hundreds, if not thousands of years.
    It remains one of the largest wetlands in the world, even at half 
of its historical size. But decades of land use changes and 
developments have imperiled the fragile landscape, and Congress acted 
to restore the Everglades.
    Everglades restoration is an important issue to this Committee, and 
something I spent countless hours discussing as a Member of the Natural 
Resources Committee. Those discussions cleared the way for the critical 
Modified Water Deliveries Project--a partnership between the U.S. Army 
Corps of Engineers (Corps) and the U.S. Department of the Interior 
which allowed for more water to move from Lake Okeechobee south to the 
Everglades National Park. The ``Mod Waters'' project also required 
raising the Tamiami trail and other efforts to restore the historic 
``River of Grass.''
    But these projects only matter if water, and clean water, flows 
from Lake Okeechobee through projects authorized as part of the Corps 
and the State of Florida's Comprehensive Everglades Restoration Plan 
(CERP). Here we are, 20 years in and much more needs to be done.
    H.R. 7575, the Water Resources Development Act of 2020, continues 
the work on Florida water and in restoring the Everglades, with several 
CERP projects included in the legislation. I am proud of the bipartisan 
work on WRDA 2020, which was unanimously approved by the House at the 
end of July.
    Ranking Member Graves and I are actively working with our 
colleagues in the Senate on a path forward on enactment of this 
important legislation. I remain committed to the enactment of WRDA on a 
two-year cycle and look forward to resolving our differences with the 
Senate as soon as possible.

    Mrs. Napolitano. If Mr. Graves is available, Sam Graves--he 
is not?
    OK, we will proceed to hearing from our witnesses, who will 
testify.
    And thank you for being here. To all of you, welcome. On 
the panel we have Noah Valenstein, secretary, Florida 
Department of Environmental Protection; the Honorable Chauncey 
P. Goss II, chairman, South Florida Water Management District's 
Governing Board; Elizabeth Jolin, captain, the Bay and Reef 
Company of the Florida Keys; Gary Ritter, assistant director of 
government and community affairs, Florida Farm Bureau 
Federation; and Shannon Estenoz, vice president of policy and 
public affairs, The Everglades Foundation.
    Without objection, your prepared statements will be entered 
into the record, and all witnesses are asked to limit their 
remarks to 5 minutes. Thank you.
    Now I will proceed to recognize Secretary Valenstein.
    You may proceed.

TESTIMONY OF NOAH VALENSTEIN, SECRETARY, FLORIDA DEPARTMENT OF 
 ENVIRONMENTAL PROTECTION; HON. CHAUNCEY P. GOSS II, CHAIRMAN, 
   GOVERNING BOARD, SOUTH FLORIDA WATER MANAGEMENT DISTRICT; 
  ELIZABETH JOLIN, OWNER, BAY AND REEF COMPANY OF THE FLORIDA 
    KEYS; GARY RITTER, ASSISTANT DIRECTOR OF GOVERNMENT AND 
COMMUNITY AFFAIRS, FLORIDA FARM BUREAU FEDERATION; AND SHANNON 
 ESTENOZ, CHIEF OPERATING OFFICER AND VICE PRESIDENT OF POLICY 
         AND PUBLIC AFFAIRS, THE EVERGLADES FOUNDATION

    Mr. Valenstein. Thank you, Chairwoman. Good morning. My 
name is Noah Valenstein, I have the pleasure of serving as 
secretary of the Florida Department of Environmental 
Protection.
    Thank you, Chairman DeFazio, Chairwoman Napolitano, Ranking 
Member Westerman, and the subcommittee members for the 
invitation to speak here today.
    I would also like to thank committee members from Florida, 
Representatives Webster, Wilson, Mast, Mucarsel-Powell, and 
Spano for their efforts to support Florida's environment and 
improve Federal cooperation on a range of issues we deal with 
here in Florida, since the environment is so critical to 
everything we do here in the State.
    And Chairwoman, thank you for your introductory comments, 
because I think that really hit on it from our meeting in 
Islamorada more than a year ago. So thank you.
    Over the past 2 years, Governor DeSantis has been laser-
focused on promoting water management that not only sustains 
flood protection and water supply, but also improves water 
quality and supports desirable vegetation growth and ecosystem 
responses across Florida. Demonstrating his strong commitment 
to solving Florida's water challenges, he appointed the first 
State-level chief science officer and chief resiliency officer 
team anywhere in the United States.
    Florida's chief science officer also chairs a team of 
leading scientists from across the State on the Blue-Green 
Algae Task Force, which the Governor created to generate 
effective strategies and solutions to prevent, mitigate, and 
respond to harmful algal blooms in Lake Okeechobee and 
surrounding watersheds.
    The task force's first set of recommended policy changes 
was unanimously passed by the State legislature and signed into 
law this June as the Clean Waterways Act here in Florida. The 
legislation augmented DEP's authority to ensure protective 
standards, and enhanced enforcement related to stormwater, 
wastewater infrastructure, and septic tanks, and agricultural 
producer compliance with our basin management action plans.
    More than ever, Floridians have united around the 
protection of our water resources, and DEP is committed to 
successfully implementing the most comprehensive water quality 
legislation that Florida has seen for over a decade.
    Unfortunately, all these efforts cannot guarantee an end to 
devastating releases from Lake Okeechobee. Army Corps water 
management policies and significant increases in large-scale 
water infrastructure and storage are critical elements to 
minimizing the future risk of detrimental discharges.
    Under the Governor's direction, the State has been leading 
the effort to expedite critical Everglades restoration 
infrastructure, including work on the Central Everglades 
Planning Project and Everglades Agricultural Area Reservoir, 
the C-43 and C-44 Reservoirs, and raising Tamiami Trail.
    Recent increases in Federal funding for south Florida 
Everglades restoration, including $235 million in fiscal year 
2020, and $250 million in President Trump's fiscal year 2021 
budget request, combined with $625 million in annual funding, 
as requested from Governor DeSantis to make up more than $2.5 
billion over a 4-year period for investments in water quality 
across Florida, including Everglades, is a clear sign of the 
impact of improved State and Federal cooperation. And we thank 
this committee, knowing that they were a part of that.
    This committee's indispensable efforts to authorize 
comprehensive Everglades restoration projects as part of your 
biennial development and consideration of the Water Resources 
Development Act cannot be overlooked, and is a critical part of 
making sure Florida's environment endures for future 
generations. Thank you so much for your track record of 
legislative success, both in 2014, 2016, and 2018.
    And we are optimistic about the passage of WRDA 2020 this 
year, which we hope will include enhanced authorities for the 
South Florida Ecosystem Restoration Task Force to address 
invasive species; at least one new project authorization to 
restore the Loxahatchee River watershed; two Post-Authorization 
Change Report authorizations to modify the C-43 Reservoir and 
the C-111 South Dade projects, and, most importantly, 
bipartisan language from the Senate Environmental and Public 
Works Committee to amend section 1308 of WRDA 2018 to direct 
the Army Corps of Engineers to carry out construction of the 
EAA Reservoir as part of the Central Everglades Planning 
Project at funding levels and expedited timeline developed and 
approved in the South Florida Water Management District 
section's 203 Post-Authorization Change Report.
    These projects are going to be vital to ensuring Everglades 
is protected for future generations. I know we have a lot of 
work ahead of us, as alluded to, but the partnership has not 
been stronger before between the Federal and State government. 
And with historic funding, the work effort on the State and 
Federal part, we have got a bright future in front of us, and 
we are really seeing a resurgence of environmentalism here in 
Florida.
    Thank you for the time.
    [Mr. Valenstein's prepared statement follows:]

                                 <F-dash>
Prepared Statement of Noah Valenstein, Secretary, Florida Department of 
                        Environmental Protection
    Good morning. I'm Noah Valenstein, and I have the pleasure of 
serving as the Secretary for the Florida Department of Environmental 
Protection. Thank you, Chairwoman Napolitano, Ranking Member Westerman, 
and subcommittee members, for hosting this hearing on ``The 
Comprehensive Everglades Restoration Plan and Water Management in 
Florida'', and for the invitation to speak here today. It's great also 
to see our Committee members from Florida, Representatives Webster, 
Wilson, Mast, Mucarsel-Powell, and Spano.
    Over the past two years, the State of Florida and many partners 
committed to environmental protection have been able to make great 
strides in our efforts to advance water quality improvements across our 
state, especially expediting water projects for restoration of the 
greater Everglades ecosystem. Many of these steps forward are the 
direct result of momentum provided by Governor DeSantis and 
strengthened partnerships between state and federal government and 
other stakeholders.
    After the governor took office in January of 2019, he issued a 
historic executive order that provided the framework for significant 
action with regard to water quality and Everglades restoration. The 
governor also announced his intention to secure a record $2.5 billion 
dollars in funding for these purposes across his first term, which was 
successfully approved by the Florida legislature at a recurring $625 
million dollars over the past two years.
    Governor DeSantis has been laser-focused on promoting water 
management that not only sustains flood protection and water supply, 
but also improves water quality and supports desirable vegetation 
growth and ecosystem responses. Demonstrating his strong commitment to 
solving Florida's water challenges, he appointed the first state-level 
Chief Science Officer anywhere in the United States. Florida's Chief 
Science Officer also chairs a team of leading scientists from across 
the state on the Blue-Green Algae Task Force, which the Governor 
created to generate effective strategies and solutions to prevent, 
mitigate, and respond to harmful algal blooms in Lake Okeechobee and 
surrounding watersheds.
    The task force sent its first set of recommended policy changes to 
the governor last year, which ultimately resulted in the unanimous 
passage of Senate Bill 712, known as the Clean Waterways Act, signed 
into law this June.
    The legislation includes increased regulations and oversight for 
stormwater and wastewater infrastructure, additional methods for 
assessing agricultural producers, the transfer septic system oversight 
from the Florida Department of Health to the Department of 
Environmental Protection, and the regulation of septic systems as 
sources of nutrients for the first time in Florida's history. 
Additionally, the governor signed an Environmental Accountability Bill 
increasing penalties across the board by 50% for all environmental 
crimes and allowing DEP to levy fines on crimes as they're happening.
    More than ever, Floridians have united around the protection of 
their water resources, and DEP is committed to successfully 
implementing the most comprehensive water quality legislation that 
Florida has seen in over a decade.
    Unfortunately, all of these efforts cannot guarantee an end to 
devastating releases from Lake Okeechobee. Army Corps water management 
policies and largescale water infrastructure and storage are critical 
elements to minimizing the risk of future detrimental discharges.
    Under the governor's direction, the state has also been leading the 
effort to expedite critical Everglades restoration projects. With the 
South Florida Water Management District working hand-in-hand with the 
U.S. Army Corps of Engineers, we've been able to accelerate multiple 
projects focusing on water storage, dispersal, and watershed 
management, all aimed at sending more water south to the Everglades and 
restoring the natural flow of water in South Florida. This includes 
work on the Central Everglades Planning Project and Everglades 
Agricultural Area Reservoir, the C-44 Reservoir and Stormwater 
Treatment Area, the Caloosahatchee C-43 West Basin Storage Reservoir, 
and the Tamiami Trail Next Steps and Old Tamiami Trail Removal.
    Some of these projects will be completed within the next three to 
four years, and the rest are already moving ahead of schedule. The 
Corps has also nearly finished rehabilitation of the Herbert Hoover 
Dike, an incredibly vital project for South Florida.
    Florida has also been incredibly fortunate to receive historic 
federal funding specifically for South Florida Everglades Restoration--
at $235 million in the Fiscal Year 2020 and an historic $250 million in 
President Trump's FY 2021 budget request that we are confident our 
Congressional delegation will fulfill through the congressional 
appropriations process.
    With this increased funding, not only have we been able to move 
forward on additional Everglades restoration projects, but we've also 
been able to establish certainty that these projects will be funded and 
completed in the near future. Combined with $625 million in state 
funding, the total funding for Everglades restoration and water quality 
investments across the state in this fiscal year is almost one billion 
dollars--an unprecedented amount--and a sign of the impact of improved 
state and federal cooperation and a mutual dedication to Florida's 
environment.
    The Everglades is one of America's national treasures, and they're 
unlike anywhere else in North America. In addition to the system's 
uniqueness and intrinsic value, the Everglades serves as habitat for a 
suite of endangered species of plants and animals, helps sustain 
drinking water to more than 8 million Floridians, and provides water 
quality benefits that form the basis of our local economies and ways of 
life.
    The Transportation and Infrastructure Committee, and this 
subcommittee in particular, are integral to the success of Everglades 
restoration, and by extension water management in and around Lake 
Okeechobee. Your indispensable efforts to authorize South Florida 
Ecosystem Restoration projects as part of your biennial development and 
consideration of Water Resources Development Act legislation sets the 
stage for all the design, construction, and operational work that 
follows. We are optimistic about the passage of WRDA 2020 this year 
which we hope will include:
    <bullet>  at least one new project authorization to restore the 
Loxahatchee River Watershed;
    <bullet>  two post authorization change report authorizations to 
account for important modifications to the Caloosahatchee C-43 West 
Basin Storage Reservoir and C-111 South Dade; and most importantly
    <bullet>  bipartisan language from the Senate Environment and 
Public Works Committee to clarify Section 1308 of WRDA 2018 to direct 
the Corps to carry out construction of the Everglades Agricultural Area 
Reservoir as part of the Central Everglades Planning Project at the 
funding levels and expedited timeline developed and approved in the 
South Florida Water Management District's Sec. 203 Post Authorization 
Change Report.

    These WRDA provisions are of fundamental importance to maintaining 
momentum as we seek to advance the most ambitious ecosystem restoration 
project in the history of mankind. They will also greatly enhance our 
operational flexibility to manage water across South Florida.
    While we still have significant and difficult work in front of us, 
we must not discount the important progress we've made, especially over 
the last two years. Where we stand today, the restoration of America's 
Everglades is a shining example of what federal, state, tribal, and 
local governmental partners cooperating effectively can do in service 
to a shared cause, no matter how complex.
    So again, thank you to this subcommittee for your ongoing attention 
to Everglades restoration and water management in Florida, and to the 
Trump Administration and this Congress for record federal funding for 
South Florida Ecosystems Restoration. Governor DeSantis and the state 
of Florida look forward to continuing to take advantage of all 
opportunities to expedite this important work with all of our federal 
partners.

    Mrs. Napolitano. Thank you, sir.
    Now we may proceed with Chairman Goss.
    Mr. Goss. Good morning, Chairwoman Napolitano, Chairman 
DeFazio, Ranking Member Westerman, and subcommittee members, 
and thanks for hosting today's hearing. My name is Chauncey 
Goss, and I have the privilege of serving as the chairman of 
the South Florida Water Management District's Governing Board 
as an appointee of Governor Ron DeSantis. It is an honor to be 
here, testifying before you today.
    America's Everglades, affectionately known as the River of 
Grass, is a crown jewel of natural resources in the United 
States, as the chairman alluded to earlier. The Everglades' 
story began several hundred years ago, when she was 
inhospitable to people, but a watery mecca for birds and 
wildlife. A vast wetland, America's Everglades span from what 
is now Orlando, all the way south to the very end of the 
Florida Peninsula, south of present-day Miami.
    What seemed like uninhabitable swampland to some quickly 
became an opportunity to others. The rich soils proved to be 
incredibly productive for agriculture, and, of course, the 
climate is ideal for those tired of the snow. But with 60-plus 
inches of average annual rainfall during our wet season and 
intense hurricanes, it becomes clear that, without proper 
canals to drain water off the land, flooding was going to be 
the norm.
    Floridians cried out for help, and your predecessors in 
Congress authorized what is known as the Central and South 
Florida Flood Control Project back in 1948.
    To demonstrate its support, the State of Florida created 
the South Florida Water Management District, a special 
governmental agency, to support that collaborative effort. 
Today the district has nearly 1,500 employees, and 3 days ago 
we passed our budget for this fiscal year just north of $1.25 
billion.
    Together, the State and the Federal Government built a 
massive public works project to provide flood protection. This 
project has been a tremendous success. With this new 
infrastructure in place, and the State's favorable economic 
opportunities, growth in south Florida exploded. Decades later, 
record growth continues, and the sky really remains the limit 
for opportunity in Florida.
    But the replumbing of south Florida has also caused 
negative, unintended environmental consequences for our natural 
systems. Recent fish kills and seagrass die-offs tell us our 
waterways are imperiled. Wading bird populations are below 
their historic average. And you might recall the toxic blue-
green algae and massive red tide blooms we experienced when 
they garnered international headlines in 2016 and 2018. And I 
can tell you from personal experience, my community of Sanibel 
suffered intense environmental and economic devastation.
    Two years ago I would have stood before you and expressed 
my concerns without optimism. However, today I am pleased to 
report that the environmental and economic disasters did not go 
unnoticed. And, thanks to your help, CERP is making significant 
progress to ensure we avoid harmful discharges to the 
estuaries, while moving water south to Florida Bay, while 
providing flood control, and while ensuring our residents have 
enough freshwater. CERP is on the radar of the President, 
Governor DeSantis, this Congress, and the Florida Legislature. 
We have momentum right now, and I am confident that momentum 
can carry us through, actually finishing our authorized and 
soon-to-be authorized projects.
    Within the next decade, with continued support and funding, 
key authorized CERP projects are expected to come online. The 
C-44 Reservoir and Stormwater Treatment Area will help protect 
the St. Lucie Estuary from excess freshwater. The 
Caloosahatchee Reservoir will help meter out water to the 
Caloosahatchee Estuary, when the estuary needs a boost of 
freshwater during the dry season. And our top priority, the 
Everglades Agricultural Area, or the EAA Reservoir Project, 
will be a game-changer for south Florida by conveying more 
water south, where it is needed.
    This is our chance to get the water right and to save 
America's Everglades. Funding and completing the CERP projects 
are how we do that. Together, we could reduce harmful algal 
blooms, ensure we have enough reliable, safe drinking water for 
Floridians and visitors, and continue to protect south Florida 
from dangerous floods.
    And the good news is you have a ready, willing, and able 
partner in Governor DeSantis. He has made it crystal clear to 
me and my fellow board members that the word of the day is 
``expedite'' when it comes to Everglades restoration. The 
faster projects come online, the more flexibility we have in 
managing our water to avoid harmful and wasteful discharges to 
the east and west, and to move more water south. We recognize 
the status quo is unsustainable, and CERP, combined with 
intelligent operational flexibility, moves us from that status 
quo.
    Thanks so much for having me today. And please know that 
you all have an open invite to visit south Florida any time to 
see for yourself what we are saving. Thank you, ma'am.
    [Mr. Goss' prepared statement follows:]

                                 <F-dash>
  Prepared Statement of Hon. Chauncey P. Goss II, Chairman, Governing 
             Board, South Florida Water Management District
    Good morning Chairwoman Napolitano, Ranking Member Westerman, and 
subcommittee members, thank you for hosting today's hearing and 
discussing ``The Comprehensive Everglades Restoration Plan and Water 
Management in Florida.'' Thank you for the opportunity to be here today 
to speak with you about saving America's Everglades and water 
management in South Florida. My name is Chauncey Goss, and, as an 
appointee of Florida Governor Ron DeSantis, I have the privilege of 
serving as the Chairman of the South Florida Water Management 
District's Governing Board.
    America's Everglades, affectionately known as the River of Grass, 
is a crown jewel of natural resources in the United States of America. 
Her history and subsequent road to restoration demonstrate the sheer 
power of American innovation and determination. Allow me to tell you 
the history of the Everglades, how we are actively undertaking the 
largest environmental restoration project in the world, and what the 
future of South Florida looks like once we complete the Comprehensive 
Everglades Restoration Plan that Congress wisely authorized two decades 
ago.
    A vast wetland, America's Everglades once spanned from what is now 
bustling Orlando in the central part of the state all the way south to 
the very end of the Florida peninsula, south of present-day Miami. The 
Everglades story begins several hundred years ago when she was 
inhospitable to people but a watery mecca for birds and wildlife. 
Wading birds, whose population numbers are used as indicators for 
ecological health, were once so plentiful in the Everglades that they 
reportedly darkened the skies overhead like storm clouds. The few 
settlers and explorers who did travel into the Everglades report having 
to cover themselves head-to-toe to protect from the swarms of buzzing 
mosquitos.
    But what seemed like uninhabitable swampland to some quickly became 
an opportunity to others. The rich soils proved to be incredibly 
productive for agriculture. And entrepreneurs built expansive railroads 
to market Florida's iconic coasts as a prime winter destination. With 
opportunity on the horizon, people flocked to the much milder South 
Florida climate. Towns blossomed along our coasts and inland near 
agricultural operations.
    The 60-plus inches of average annual rainfall during our wet season 
and the intense hurricanes proved that picturesque South Florida was 
not always a year-round sunny paradise. Without proper canals to drain 
water off the land, flooding became the norm during South Florida's 
frequent storms. Even worse, thousands perished after major hurricanes 
hit South Florida in the early Twentieth Century and walls of water 
swept entire communities away. Floridians cried out for help and 
Congress authorized what is known as the Central and South Florida 
Flood Control Project or sometimes called the C and S F Project in 
1948. To demonstrate its cooperation and support with the Federal 
Government, the State of Florida created the South Florida Water 
Management District, a special government agency to support the 
collaborative effort. Together, the State and Federal Government built 
a massive public works project to provide flood protection.
    The project was a major success for flood protection and to this 
day, we have never suffered human loss at the scale seen before the 
Central and South Florida Flood Control Project was completed. With 
this incredible infrastructure in place and the state's favorable 
economic opportunities, growth in South Florida exploded. Decades 
later, record growth continues and the sky remains the limit for 
opportunity in the Sunshine State.
    The Central and South Florida Flood Control Project led to South 
Florida being home to bustling international metropolises like Miami to 
charming fishing villages like Port Salerno and even quaint beach 
getaways in places like Sanibel Island. This natural beauty that makes 
Florida special and the endless opportunities are why my family moved 
to Sanibel Island on Florida's Southwest coast where I grew up.
    The canals, levees, and water management infrastructure provided 
critical flood protection and allowed millions of people to live in the 
Sunshine State. But the replumbing of South Florida also caused 
negative unintended environmental consequences that are increasingly 
getting worse for our natural systems.
    From the northern most reaches of the Everglades all the way to the 
southern bounds, Florida's plumbing has been greatly altered. Just 
south of Orlando, a once slow-moving, meandering river known as the 
Kissimmee River was channelized and became a water superhighway, 
shunting massive amounts of water into Lake Okeechobee and drying 
nearby floodplains. Lake Okeechobee, known as the heart of America's 
Everglades, also became human-managed with newly engineered outlets to 
control water levels in the lake and provide flood protection for 
communities surrounding it.
    Like all estuaries, the Caloosahatchee River and Estuary on 
Florida's West Coast needs the right flow of freshwater and saltwater. 
At times, it is cut off from the freshwater it needs. The 
Caloosahatchee's sister estuaries on the east coast, the St. Lucie 
Estuary and Lake Worth Lagoon, are often inundated with too much 
freshwater--again a result of the flood protection system. Heading 
south, other estuaries like Florida Bay between the Florida mainland 
and the Florida Keys and Biscayne Bay off the coast of Miami, are both 
nearly cut off from their much-needed freshwater supply during the 
driest parts of the year. These types of negative impacts are felt all 
across America's Everglades--all done in the name of flood protection.
    These drastic changes to our natural environments coupled with 
changing conditions have hurt both Florida's environment and our 
economy. Fish kills and seagrass die offs tell us our waterways are 
imperiled. Wading bird populations are significantly below their 
historical averages. And you might recall the toxic blue-green algae 
and massive red tide blooms we recently experienced when they garnered 
international headlines in 2016 and 2018. Guacamole-thick algae in our 
canals and dead dolphins on our shores seemed to be symptoms of an 
ecosystem in need of restoration.
    I saw these negative impacts of Harmful Algal Blooms in Sanibel 
firsthand. I saw the sick and dying fish and birds. I heard people say 
they had a hard time breathing. And I watched as businesses that I have 
known for a lifetime suffer because visitors cancelled reservations to 
avoid the algae issues they heard about in the news.
    These ecological problems don't just impact our waterways and 
wildlife. They also can cripple our economy. Floridians and visitors 
alike depend on clean water. And with more than 100 million people 
visiting Florida annually for things like its scenic beaches, excellent 
fishing and world-class destinations, we must continue to protect and 
restore the environment that makes Florida Florida.
    We cannot go back to the Everglades of the past--none of us would 
be able to enjoy South Florida if that were the case--but by saving the 
Everglades we can avoid some of the worst unintended consequences from 
ditching and draining our River of Grass.
    I'm pleased to report that the Congressionally authorized 
Comprehensive Everglades Restoration Plan, or CERP as its known here in 
South Florida, is making significant progress thanks to the support 
from the President and Congress coupled with the support from Florida 
Governor Ron DeSantis and our state legislature. CERP and smart 
operations of South Florida's water management infrastructure are the 
roadmap to a renewed and restored America's Everglades. We are well on 
our way.
    The federal government and Florida have showed tremendous 
cooperation by jointly authorizing, funding and building the projects 
that make up CERP and other key restoration projects. Together, we have 
built several large infrastructure projects to help correct the 
environmental damage done by draining the Everglades. The restoration 
of the Kissimmee River, which I spoke about earlier, is nearly complete 
and showing incredible promise. And within the next decade, with 
continued support and funding, key CERP infrastructure projects are 
expected to come online and further enhance the Greater Everglades 
Ecosystem. The C-44 Reservoir and Stormwater Treatment Area will 
protect the St. Lucie Estuary from excess freshwater. The 
Caloosahatchee Reservoir will help meter out water to the 
Caloosahatchee Estuary when the estuary needs a boost of freshwater. 
And our top priority, the Everglades Agricultural Area (EAA) Reservoir 
Project, will be a gamechanger for South Florida by conveying more 
water south where it's needed.
    We're in a historic time for South Florida and the environment and 
in some respects for humankind.
    This is our chance to reverse much of the damage and unintended 
consequences caused by decisions we made in the past.
    This is our chance to ``get the water right'' and improve the 
environment.
    And this is our chance to save America's Everglades for the people 
and environment that all depend on this tremendous natural resource.
    Funding and completing the projects of CERP is how we do that and 
how we prove that the United States can do what no one once thought 
possible. Insurmountable environmental damage can and will be reversed.
    CERP and better water management in South Florida will be great for 
our waterways, for our birds, for our fish, for our alligators. And 
yes, it will also be great for our residents and our visitors. 
Together, we can reduce Harmful Algal Blooms, ensure we have enough 
reliable safe drinking water for Floridians and visitors, and continue 
to protect South Florida from dangerous floods.
    I want to thank you for having me here today to talk about the 
largest environmental restoration project in human history. I'm 
grateful for the ongoing support of Congress and President Trump. With 
your support, we can finish CERP, save the Everglades, and better 
manage South Florida's water resources. And in Florida, you have a 
ready, willing and able partner in Governor DeSantis and the entire 
state.
    I invite you the Subcommittee to visit South Florida anytime and 
see for yourself what we are saving.
    Thank you.

    Mrs. Napolitano. Thank you, sir, Mr. Goss. This is very 
interesting. I would love to go back, and I will one of these 
days. But now we can go on to our next witness, Captain Jolin.
    You may proceed.
    Ms. Jolin. Chair Napolitano, Ranking Member Westerman, Vice 
Chair Mucarsel-Powell, and members of the subcommittee, my name 
is Captain Elizabeth Jolin. I have owned and operated a fishing 
and environmental tour business in Islamorada in the Florida 
Keys for the past 20 years. Thank you so much for your time 
today.
    When you next visit the Florida Keys and book a charter 
with me, we will have a magical day. We will fish. We will spot 
dolphins, herons, egrets, and pelicans. We will explore the 
mangroves, and we will dive into clear waters to be charmed by 
a myriad of tropicals swimming amidst the corals.
    While we are on board, it is unlikely that we will discuss 
the wildly fluctuating salinity levels of the Florida Bay. We 
will not visit the 40,000 acres of dead seagrass in the bay 
caused by that very salty Florida Bay condition. And we will 
certainly not spend 1 minute in the nearshore ocean zone that 
has been suffocated by algae-laden Florida Bay water coming in 
on the tide. Finally, we will not discuss the future of the 
Florida Bay, because it is in crisis. The Florida Bay receives 
a fraction of its historical waterflow, causing it to be 
perpetually starved for freshwater.
    We are often chided in the Florida Keys for being laid 
back, and yet we can certainly recognize an emergency when we 
see one, and the Florida Bay is facing a very grave emergency.
    This Florida Bay emergency is certainly affecting my 
business. But more importantly, this emergency is affecting 
every business in Monroe County. There isn't a single job in 
the Florida Keys that doesn't rely on a vibrant and thriving 
resource. Teachers, policemen, restaurateurs, housekeepers, 
real estate agents, and yes, fishermen and women, rely on a 
healthy Florida Bay. It is, quite literally, the foundation of 
our community.
    Despite this, I have confidence in our citizens, our 
scientists, and our legislators. Today's gathering strikes me 
as an indication that we can all clearly understand, and quite 
possibly agree on these points: one, Everglades restoration is 
not about preserving the Everglades, as much as preserving the 
economy of south Florida; two, we have to manage the puzzle of 
Everglades restoration holistically, that is, we can't solve 
the problems of one estuary to the exclusion of others; three, 
politics must be put aside if we are going to find success in 
restoration efforts; and finally, we are running out of time. 
CERP was designed 20 years ago and, as of today, only a 
fraction of those projects have been completed.
    I sincerely hope we can find common ground to attach 
urgency and priority to restoration efforts. And I thank you 
for your time today.
    [Ms. Jolin's prepared statement follows:]

                                 <F-dash>
 Prepared Statement of Elizabeth Jolin, Owner, Bay and Reef Company of 
                            the Florida Keys
    Chair Napolitano, Ranking Member Westerman, Vice Chair Mucarsel-
Powell, and Members of the Subcommittee, My name is Captain Elizabeth 
Jolin. I have owned and operated a fishing and environmental tour 
business in Islamorada in the Florida Keys for the past 20 years.
    Thank you for your time today.
    When you next visit the Florida Keys and book a charter with me, we 
will have a magical day. We will catch fish, see herons, egrets, 
dolphins, explore the mangroves, and dive into the clear waters to be 
charmed by a myriad of tropicals swimming in the coral.
    While we are on board it is unlikely we will talk about the wildly 
fluctuating salinity levels of the Florida Bay. We will not visit the 
40,000 acres of dead sea grass in the Bay caused by those salty 
conditions. We will certainly not spend any time in the near sure ocean 
zone that has been suffocated by algae laden Bay water circulated on 
the tidal exchange. And finally, we will not discuss the future of the 
Florida Bay--because it is in crisis.
    The Florida Bay receives a fraction of its historical water flow 
causing it to be perpetually starved for freshwater. And while we are 
often accused of being laid back in the Florida Keys, we can recognize 
an emergency when we see one.
    The Florida Bay is facing a very real emergency. The Florida Bay 
receives a fraction of its historical water flow causing it to be 
perpetually starved for freshwater.
    This emergency is affecting my business but more importantly this 
emergency is affecting every business in my community in Monroe County. 
There isn't a single job in the Florida Keys that doesn't rely on a 
thriving and vibrant natural resource. Our teachers, policeman, 
restaurateurs, housekeepers and of course fisherman rely on a healthy 
Florida Bay. It is quite literally the foundation of our community.
    Despite this, I have confidence in our citizens, scientists, and 
legislators. Today's gathering strikes me as an indication that we 
clearly understand and quite possibly can agree on these points:
    1.  Everglades restoration is not about preserving the Everglades 
as much as preserving the economy of South Florida.
    2.  We have to manage the puzzle of Everglades restoration 
holistically. That is, we can't solve the problems of one estuary to 
the exclusion of others.
    3.  Politics must be put aside if we're going to find success in 
our Restoration efforts.
    4.  And finally, we are running out of time. CERP was designed to 
20 years ago in a fraction of its projects have been completed. I 
sincerely hope we can come together to attach urgency and priority to 
Restoration efforts.

    Thank you.

    Mrs. Napolitano. Thank you for your testimony, and I agree 
with you. But, as you can see, politics has been kept aside in 
passing WRDA, because it was a bipartisan bill. Thank you very 
much, and I may take you up on that tour. We have next Mr. 
Ritter.
    But I understand you may be having some technical 
difficulties. Are you on, Mr. Ritter?
    Mr. Ritter. Yes, ma'am. Can you hear me?
    Mrs. Napolitano. We can hear you.
    Mr. Ritter. Great.
    Thank you very much, Madam Chairman and committee members, 
for the opportunity to testify today. I am very proud to 
represent the Florida Farm Bureau Federation, and our State's 
largest agricultural organization, with more than 142,000 
members, as well as thousands of farmers and ranchers that live 
and work in south Florida. We represent farmowners who produce 
over 300 agricultural commodities, regardless of their scope of 
operations or location.
    In normal times, agriculture is the second largest 
component of the Florida economy. During crisis, it is even 
more important. Most importantly, agriculture is not dependent 
upon visitors and population growth for its contributions.
    How has south Florida come from an uninhabitable, 
unfarmable landscape 100 years ago, to the home of more than 8 
million people, the most dynamic and productive ag economy east 
of the Mississippi, and an ecosystem unmatched anywhere in the 
world?
    It has been possible because the State of Florida and 
Congress made the necessary investments in the Central and 
Southern Florida Project, and we have sustained that support 
for seven decades. We are now in the middle of making retrofits 
to that project on a truly massive scale to achieve more 
ecosystem benefits than what the original design was able to 
provide.
    Therefore, sticking to the entire Comprehensive Everglades 
Restoration Plan with the proper sequencing of projects without 
deviation is paramount to the success of Everglades 
restoration. The planning for this process came to a head in 
the year 2000, with the approval by Congress of the 
Comprehensive Everglades Restoration Plan. Since that time, we 
have spent $6 billion so far, and the Corps announced this past 
week their plan to spend another $7 billion over the next 10 
years.
    Florida agriculture has been directly involved from the 
earliest planning stage, and we fully support the suite of 
projects that are now moving forward.
    One of the keys to the broad community support that this 
project has enjoyed was the promise embedded in the Federal law 
that, if approved, restoration and the needs of the economy 
would move ahead together. At a minimum, no legal water use, 
including environmental water supply, would be reduced, as the 
plan was implemented. If we have one misgiving about where 
things stand now, it is the Corps' reluctance to commit that 
farmers' water supply would not be reduced.
    When we talk about water supply, we are talking about Lake 
Okeechobee. The lake is a central feature in the south Florida 
water management infrastructure, and it provides flood 
protection, water supply, environmental enhancement, 
recreation, and navigation to all of south Florida. In 2007, 
the Corps lowered the lake to accelerate repairs to the Herbert 
Hoover dike. That work will be complete in 2 years.
    Floridians expect the water supply that they had in 2007, 
the year before the lake was temporarily lowered, to be 
restored when the work is complete. Farmers are not asking to 
go back to a high lake level, or to receive more water than we 
had before it was lowered. We will continue to work with the 
Corps as the new schedule is developed, but we would all feel 
better if the Corps would acknowledge that water that has been 
available to farmers for the last 50 years will be a part of 
any plan as we move forward.
    The Florida Farm Bureau Federation and its farmer-rancher 
members remain staunch partners with local governments, water 
management districts, and State and Federal agencies in this 
massive restoration effort.
    We very much appreciate the opportunity to be here today, 
and we thank you very much for listening to our comments.
    [Mr. Ritter's prepared statement follows:]

                                 <F-dash>
Prepared Statement of Gary Ritter, Assistant Director of Government and 
           Community Affairs, Florida Farm Bureau Federation
    The Florida Farm Bureau Federation is our state's largest 
agricultural organization with more than 142,000 members. Sixty county 
Farm Bureaus constitute the grassroots structure of our organization. 
We represent farm owners who produce all 300 of the state's 
agricultural commodities, regardless of their scope of operations or 
location.
    Within the framework of our organization's policy, we fully support 
a holistic approach to Everglades restoration through the proper 
sequencing of projects that ultimately improves the timing, 
distribution, and quality of water moving throughout the Kissimmee-
Okeechobee-Everglades (KOE) system. We urge federal policymakers to do 
this by:
    <bullet>  Recognizing Florida agriculture's heritage of farming and 
stewardship;
    <bullet>  Recognizing KOE dependencies and constraints;
    <bullet>  Honoring the Comprehensive Everglades Restoration Plan 
(CERP) and the carefully crafted Integrated Delivery Schedule;
    <bullet>  Supporting all needed programs and partners, including 
Florida agriculture; and;
    <bullet>  Recognizing the rights of all legal water users including 
the environment.

    Increased flow of water to the remnant Everglades is as important 
as balancing the water-related needs of the region, more specifically, 
enhancing water supply and water quality while maintaining flood 
protection. We continue to encourage water managers and the U.S. Army 
Corps of Engineers (COE) to comply with CERP and the sequencing 
outlined in the Integrated Delivery Schedule and avoid distractions 
that compromise the delivery of critical project components in this 
effort. Farmers and ranchers will continue to partner with state and 
federal agencies as they play an important and appropriate role in the 
restoration process. It is imperative Everglades restoration stay on 
target to implement the carefully sequenced plan to accomplish the 
needed benefits for the entire system, rather than allow regional 
initiatives to disrupt this carefully crafted plan.
     I. Florida's Agricultural Heritage of Farming and Stewardship
    Agriculture is a critical part of Florida's heritage and economy, 
playing the essential role of providing food, fiber and foliage in 
Florida, throughout the country and the world while exercising good 
stewardship. In fact, Florida's rich agricultural history dates back 
nearly 500 years.
    Agriculture is Florida's second largest industry and a major 
economic driver for the state; notable, it is independent of visitors 
and population growth for its contributions. It provides 2.1 million 
jobs and over $7 billion in receipts to Florida. Agriculture in south 
Florida, more specifically the 16-county area of the South Florida 
Water Management District (SFWMD), is diverse, producing many different 
commodities. Understandably, farmers and ranchers in south Florida, and 
statewide, oversee millions of acres of land managing nutrients and 
water through sound science and technology to protect the environment 
while maintaining production and economic viability.
    The food production and environmental conservation supplied by 
farms is vital to this country during the late fall, winter and spring 
months. During these seasons, most of the country is unable to grow the 
fruits and vegetables needed to support the nutritional needs of and 
provide vital food security for our country. Contrary to what media 
regularly propagates, farmers in the Everglades Agriculture Area (EAA), 
south of Lake Okeechobee, are our largest suppliers of winter 
vegetables, growing sweet corn, beans, lettuces, cabbage, radishes, 
rice, and oriental vegetables, in addition to sugarcane.
    The ever changing demographic of the populace in south Florida has 
also resulted in a lack of understanding of agriculture and the 
products and benefits that a healthy agricultural sector provides. To 
be fair, agriculture has struggled to communicate effectively with a 
population that is urban and unfamiliar with the rural parts of 
Florida. Consequently, the general public is likely to believe that 
agriculture is responsible for causing all the water related issues 
throughout the state because it occupies such a large part of the rural 
landscape and should therefore be responsible for addressing those 
issues. This viewpoint is especially prevalent in south Florida.
    The fact is for several decades farmers in the EAA have been an 
integral part of the CERP process, helping to clean water from Lake 
Okeechobee as it passes through their farms. Most importantly, they 
continue to be part of the solution in Everglades restoration efforts.
            II. Recognizing KOE Dependencies and Constraints
    The Central and Southern Florida flood control system traces its 
beginnings to the 19th century with the support of federal and state 
policymakers of the time. The system was completed by the early 1970's, 
concluding with the channelization of the Kissimmee River, despite 
vocal opposition from Okeechobee basin ranchers. The flood control 
system completely altered the timing, distribution and quality of water 
throughout the entire Kissimmee-Okeechobee-Everglades ecosystem. The 
region wide system of water management paved the way for growth and 
development across south Florida. When the system was completed, there 
were approximately 2 million people living in the 16-county region of 
the South Florida Water Management District. Today, almost 9 million 
people make south Florida their home, a threefold increase in 
population.
    Lake Okeechobee is the ``liquid heart'' of water supply for south 
Florida and its water quality is of great concern to all stakeholders, 
agriculture and coastal residents alike. Drainage and flood control 
projects implemented in the early and middle part of the last century 
provided a conduit for nutrient loading in the lake as water and 
sediments moved quickly off the landscape by design. Water, 
specifically floodwaters, were seen as a common enemy and treated 
accordingly. These nutrient-laden sediments, referred to colloquially 
as ``legacy phosphorus,'' remain today in both Lake Okeechobee and in 
the watersheds of the Northern Everglades. The COE's engineering of the 
Kissimmee River greatly exacerbated sediment transfer to the lake. Due 
to the sandy soils and an underlying organic layer, legacy phosphorus 
from natural and anthropogenic sources continue to contribute to the 
nutrient enrichment of Lake Okeechobee through the flood control system 
now operated and maintained by SFWMD. During the initial design and 
construction of the flood control project, the COE continually alluded 
to the fact that water quality would suffer as a consequence of the 
drainage system.
    As south Florida's population has grown, so has the number water 
resource-related initiatives that are driven by population growth, but 
directly affect agriculture. These initiatives include studies and 
legislative mandates to address sustainable growth, environmental 
protection and water management. Rulemaking on every level of 
government resulted in laws and rules addressing growth management, 
comprehensive planning, environmental conservation, water supply 
planning, and ever more restrictive standards for water use, water 
management, and land management.
    Ironically, best management practices (BMPs) for farming and 
ranching, which started here as a voluntary grassroots effort by 
farmers and ranchers to foster practices that protect the land and 
water upon which their livelihoods depend, has now become a regulatory 
program administered by the Florida Department of Agriculture and 
Consumer Services (FDACS). Each of these initiatives impact the way 
farms and ranches manage land and water resources and conduct their 
businesses.
   III. Honoring CERP and the Carefully Crafted Integrated Delivery 
                                Schedule
    The Comprehensive Everglades Restoration Plan (CERP) was authorized 
by Congress in 2000 as a plan to ``restore, preserve, and protect the 
south Florida ecosystem while providing for other water-related needs 
of the region, including water supply and flood protection.'' The other 
water related needs of region includes agriculture. Everglades 
restoration should be true to its implementation authority and proper 
sequencing as outlined in the Integrated Delivery Schedule (IDS).
    The IDS, shared in cost by the state of Florida and the federal 
government, provides a collaborative science based sequencing strategy 
for planning, designing and constructing projects based on ecosystem 
needs, benefits, costs and available funding. This is achieved by:
    <bullet>  Maximizing holistic benefits to the regional system as 
early as possible;
    <bullet>  Ensuring additional projects will be ready to continue 
progress on restoration; and,
    <bullet>  Maintaining consistency with project dependencies and 
constraints.

    Agricultural BMPs complement these efforts and are continually 
evolving with sound science and technology to improve water quality and 
storage as new IDS projects come on line.
  IV. Supporting all Needed Programs and Partners, Including Florida 
                              Agriculture
    The state of Florida maintains a leadership and partnership role in 
conjunction with federal projects. For instance, the Florida 
legislature unanimously passed Senate Bill 712, recently signed by 
Governor Ron DeSantis also known as ``The Clean Waterways Act''. As a 
part of this legislation, agricultural farms and ranches are once again 
called upon to continue their partnership role to improve water quality 
through the implementation of best management practices (BMPs), 
collaborative water projects and research. According to the Florida 
Department of Agriculture and Consumer Services (FDACS) Office of 
Agricultural Water Policy 2020 report, research efforts have expanded 
to include quantifying and demonstrating benefits from precision 
agriculture technologies to improve crop nutrient efficiencies and 
reduce fertilizer and irrigation application rates.
    Agriculture's contributions and partnerships to Basin Management 
Action Plans (BMAPs) and regional restoration projects largely go 
unnoticed by stakeholders. Agriculture has been and continues to be a 
cooperative partner with the Florida Department of Environmental 
Protection to satisfy their responsibilities as a part of a BMAP. 
However, it should be noted that farmers and ranchers cannot do it 
alone, nor should they be expected to. There must be a collaborative 
and holistic approach for restoration efforts to be successful.
    Farmers throughout the region of the SFWMD continue to aggressively 
implement BMPs to slow or eliminate the movement of stormwater, and its 
sediment load, from farms and ranches. In spite of their efforts, more 
recognition needs to be given to the farmer for these activities as 
focus remains on the in lake nutrient load.
    For the past 20 years, the Farm Bureau Federation in partnership 
with FDACS and the University of Florida Institute of Food and 
Agricultural Sciences has recognized farmers and ranchers through the 
County Alliance for Responsible Environmental Stewardship (CARES). The 
CARES program recognizes with signage those farmers and ranchers who 
have implemented BMPs and exhibited responsible environmental 
stewardship. There are more than 80 CARES recipients in the Lake 
Okeechobee Basin and more than 900 throughout the state.
    Additionally, Florida Farm Bureau along with FDACS has also worked 
with The Nature Conservancy in the development of a 4Rs fertilizer 
certification program that's been incorporated into FDACS BMP manuals. 
This program mandates the efficient use of fertilizer by requiring 
applications be at the right rate, right time, right source and right 
place. Along with CARES, the 4Rs program support BMAP goals and are 
examples of agriculture's partnership and commitment to CERP.
    For example, continued EAA agricultural production fits within the 
framework of the Everglades Restoration Programs and CERP in terms of 
water quality as well. EAA farmers have exceeded the state-mandated 
goal of reducing phosphorus going into the Everglades by 25% for the 
past 26 years, achieving more than a 55% reduction on an average annual 
basis.
    Farmers north of the Lake in partnership with the SFWMD have 
implemented dispersed water management projects that hold water back on 
thousands of acres on farms and ranches that will:
    <bullet>  Provide valuable groundwater recharge for water supply;
    <bullet>  Improve water quality and rehydration of drained systems;
    <bullet>  Enhance plant and wildlife habitat; and,
    <bullet>  Help sustain the local economy by incentivizing 
landowners to provide greater environmental stewardship.
           V. Recognizing the Rights of all Legal Water Users
    The environment, agriculture, urban development, and people depend 
on Lake Okeechobee for part or all of their water supply, in addition 
to flood protection, navigation and recreation. The lake level is 
maintained daily by the COE using the Lake Okeechobee Regulation 
Schedule 2008 (LORS2008). The LORS2008 regulation schedule was 
implemented by the COE in 2008 to facilitate the emergency 
rehabilitation of the Herbert Hoover Dike surrounding Lake Okeechobee 
and protect surrounding populations until the work was done. This new 
regulation schedule lowered Lake Okeechobee's control elevation by one 
and half feet, which resulted in a reduction of available legal water 
supply from the lake to all its user groups, including the environment.
    The schedule includes flexibility for the COE to operate the lake 
at higher lake stages towards the end of the summer rainy season in 
this tropical climate. Holding more water at this time of year both 
decreases the amount of water being released to the Caloosahatchee and 
St. Lucie Estuaries (``to tide'') and provides a vital water supply for 
the dry season for use by the environment and permitted water users.
    Lake Okeechobee is an integral part of the Comprehensive Everglades 
Restoration Plan (CERP), providing flood protection, water supply, 
environmental enhancement, and recreation/navigation to all of south 
Florida including the remnant Everglades and Everglades National Park. 
As the dike rehabilitation nears completion, the Corps is developing a 
new Lake Okeechobee System Operating Manual (LOSOM).
    Because the Lake is a part of CERP, it is critical that the Water 
Savings Clause provided in the Water Resources Development Act (WRDA) 
of 2000 remains part of the new LOSOM. The purpose of the Water Savings 
clause was to provide assurances to all water users including the 
environment that the same level of service as provided in WRDA 2000 and 
authorized in CERP would continue. Therefore, any new regulation 
schedule must meet all the requirements of CERP and the Central and 
Southern Florida water management system, which includes the water 
supply for farmers and ranchers.
    The Florida Farm Bureau Federation and its farmer and rancher 
members are staunch partners with local governments, water management 
districts, state and federal agencies in this massive restoration 
project and they are committed to the use of science-based BMPs. 
Sticking to the entire CERP plan with the proper sequencing of projects 
without deviation is paramount to the success of Everglades 
Restoration. Projects already designed to improve water quality, 
storage and the timing and distribution of water throughout the system 
should take precedent over sub-regional initiatives that would result 
in partisanship and delay. Disproportionately favoring any one 
component or one region over the ecosystem as a whole and the entire 
suite of projects needed to accomplish this effort would compromise the 
integrity of this time-honored process.
                             VI. Conclusion
    The Florida Farm Bureau Federation's commitment, along with all 
private stakeholders and government partners, to environmental 
stewardship and conservation is evident and indicative of the Florida 
farmer's proactive leadership on water issues in the state through the 
decades. Our collective and united approach to these tough issues has 
paid dividends for the Florida resident in cleaning up our natural 
resources, preserving a safe and abundant water supply, and protecting 
the state's residents from the real and fragile threat of flooding. A 
collaborative process must continue if we are to address these ongoing 
challenges in a meaningful and effective way. Florida's farmers and 
ranchers welcome that continued conversation.

    Mrs. Napolitano. Thank you for your comments, Mr. Ritter. 
And I would like to point out that nowhere are there any 
mention of Native American water rights, which also go into the 
equation. And I am sure that you are thinking of the water 
quality for drinking water for the general Floridians. OK, 
thank you very much.
    Ms. Estenoz, you may proceed.
    Ms. Estenoz. Thank you, Madam Chair, members of the 
committee. On behalf of The Everglades Foundation board of 
directors, I thank you for the opportunity to address the 
committee today.
    For 27 years, The Everglades Foundation has had one mission 
and one priority: to see America's Everglades restored for the 
benefit of the ecosystem, our economy, and future generations. 
We are immensely grateful for the continuous support Congress 
and, in particular, this committee, has shown the Everglades 
over these many years. That tradition of support continues.
    The Water Resources Development Act of 2020 confirms the 
priority status of the Everglades Reservoir, requires 
transparency in how precious Everglades water is divvied up, 
and acknowledges the importance of reducing harmful discharges 
of toxic algae into Florida's waterways, fisheries, and 
communities. We congratulate Chairman DeFazio, Ranking Member 
Graves, and the entire committee on the passage of a bipartisan 
WRDA this summer. We hope that the Senate takes up your good 
work and moves this bill to the President's desk as soon as 
possible.
    I look forward to today's discussion about protecting and 
restoring the Everglades and estuaries. I am going to focus my 
opening remarks on the shorter term topic of revising 
operations to address harm being experienced in the Everglades 
and estuaries.
    Specifically, moving water from Lake Okeechobee to the 
Everglades, particularly in the early dry season, should be 
thought of as a current water management strategy, not just a 
future restoration goal. Now, when I say early dry season, I am 
generally talking about the months of December, January, and 
February. And when I say wet season, I mean, generally, June 
through November.
    As we spend the next decade building restoration projects, 
the Corps should use its other authorities to improve things, 
especially to address serious--in some cases, irreparable--harm 
in the Everglades and estuaries.
    From this committee's perspective, it is important to 
prevent conditions in the Everglades and estuaries from getting 
worse before restoration infrastructure is complete. As the 
committee knows, we currently have inadequate infrastructure to 
move enough water south in the wet season.
    Restoration projects like the Central Everglades Plan, 
Tamiami Trail bridges, and the Everglades Reservoir are 
critical updates to that infrastructure, and they represent the 
long-term approach to securing south Florida's future. The 
Everglades Foundation hopes that the White House and Congress 
will invest aggressively in finishing these projects as soon as 
possible.
    Unlike in the wet season, however, in the dry season 
existing infrastructure is rarely a constraint. Instead, in the 
dry season, the constraint to flowing water south is the rules 
that govern where water goes or doesn't go. So here's where the 
short-term opportunity lies. Because we are nearing the 
completion of the Herbert Hoover dike rehabilitation, the Corps 
is revising the rules for operating Lake Okeechobee. It has the 
opportunity to include in these new rules a proactive win-win 
approach to addressing harm and achieving regionwide benefits.
    Consider the fact that the Everglades needs to be wet all 
the time, very wet in the wet season, a lot less wet in the dry 
season, but wet, nonetheless. By allowing more of the water the 
Everglades needs during the dry season to move south, peat 
soils in the Everglades could stay wet longer, reducing soil 
loss and carbon emissions through oxidation and fire. Aquifer 
resilience for Palm Beach, Broward, Miami-Dade, and Monroe 
Counties could improve. The lake could be brought down to 
healthier and safer levels more frequently.
    By moving water south early in the dry season, we will face 
the subsequent wet season with more room in the lake to store 
rainfall, a proactive approach to addressing the risk of 
harmful discharges. Unfortunately, so far the Corps has said 
that including this strategy is outside the scope of its 
current rule revision. It is inexplicable that the Corps would 
not adopt into the Lake Okeechobee rulebook a management 
strategy that has the potential to help millions of south 
Floridians, the estuaries, and America's Everglades.
    Next to rainfall, Lake Okeechobee is the single most 
hydrologically significant variable in south Florida. 
Obviously, we can't control the rain, but we can control the 
extent to which the lake can fluctuate safely. And we also 
write the rules for moving lake water around the system. Until 
new restoration infrastructure is complete, these are the most 
significant things we can do to balance competing needs for 
water supply and flood protection, and to protect people and 
natural systems from harm.
    In closing, the lake must be operated to reflect modern 
values and the 21st-century Florida economy, not only as 
restoration confronts the unintended consequences of our past, 
but as we meet the demands of our present, and rise to the 
challenges of our future. Thank you.
    [Ms. Estenoz's prepared statement follows:]

                                 <F-dash>
Prepared Statement of Shannon Estenoz, Chief Operating Officer and Vice 
   President of Policy and Public Affairs, The Everglades Foundation
    Madam Chair and Members of the Committee, my name is Shannon 
Estenoz, and I am the Chief Operating Officer and Vice President of The 
Everglades Foundation. On behalf of our Board of Directors, I thank you 
for the opportunity to address the Committee today. For 27 years, The 
Everglades Foundation has had one mission and one priority: to see 
America's Everglades restored. We have worked to see form, function, 
and resilience restored to a unique ecosystem that supplies drinking 
water for millions of Americans and is the foundation of the tourism, 
real estate, and recreation industries--all pillars of Florida's 21st 
century economy. We are immensely grateful for the continuous support 
Congress and, in particular, this Committee has shown the Everglades 
over these many years.
    That tradition of support continues in the current Water Resources 
Development Act (WRDA) of 2020. The bill contains critically important 
policy provisions clarifying the priority status of the Everglades 
Reservoir, requiring greater transparency in the allocation of precious 
Everglades water, and acknowledging the importance of reducing harmful 
discharges of toxic algae into Florida's waterways, fisheries, and 
communities. We congratulate Chairman DeFazio, Ranking Member Graves, 
and the Committee on the passage of a bipartisan WRDA under extremely 
difficult circumstances this summer. We hope that the Senate will take 
that good work and move this bill to the President's desk as soon as 
possible.
    The topic of today's hearing highlights that it is not only 
infrastructure, but also operational rules and water management that 
have an enormous impact on Florida's environment and economy. 
Traditionally, when Everglades advocates address this Committee, they 
focus on infrastructure plans, projects, and investments, including the 
Comprehensive Everglades Restoration Plan (CERP). But today, my focus 
will be on water management operations--a topic central to the well-
being of the Everglades, Florida's 21st century economy, and to 
ensuring Congress maximizes the return on its restoration investments. 
Specifically, moving water from Lake Okeechobee to the Everglades, 
particularly in the early dry season, should be considered a current 
water management tool, not just a future restoration goal. As we spend 
the next decade building restoration projects authorized by this 
Committee, the state and federal governments should also be using other 
authorities to improve conditions in South Florida. Existing 
authorities offer opportunities to reduce risk for the often parched 
Central Everglades, Everglades National Park, and Florida Bay, the 
millions of water users who rely on aquifer systems recharged by the 
Everglades, communities living in the shadow of the Herbert Hoover 
Dike, and the communities along the Caloosahatchee and St. Lucie 
estuaries who suffer from harmful discharges from Lake Okeechobee. We 
know that in the long-term, infrastructure modified for Everglades 
restoration and other programs will give us much greater flexibility to 
balance the water-related needs of South Florida. But I am here today 
to talk about what can be done immediately to optimize water management 
operations to more fairly and equitably use the infrastructure we have 
to distribute the benefits and the risks among the many competing 
water-related needs in the region.
    In 2018, Congress teed up the biggest opportunity we have seen in 
12 years to do exactly this--the revision of the lake regulation 
schedule, also known as the Lake Okeechobee Systems Operating Manual 
(LOSOM). We are 18 months into that process, and from the beginning, 
The Everglades Foundation and its conservation partners have asked the 
U.S. Army Corps of Engineers (Corps) to include downstream Everglades 
water needs in the revised operating rules. The Corps' response has 
been that those needs are outside the scope of these revisions. 
Frustratingly, the Corps seems to be stating that Everglades water 
needs can only be met through the Everglades restoration program and 
not through the Corps' other authorities. This is absurd on its face.
    The Corps has broad authority under the Central and Southern 
Florida Project to balance flood control, water conservation, saltwater 
intrusion, preservation of fish and wildlife, and navigation. The Corps 
has adopted a constrained interpretation of those purposes in writing 
the rules for Lake Okeechobee operations. Now that the Corps is 
rewriting the lake's rulebook, there is an opportunity for the Corps to 
exercise authority more fairly, more sustainably, and more equitably. 
The new rulebook needs to have an explicit option allowing water 
managers to pull water from the lake for the Everglades during the dry 
season. This will allow water managers to draw the lake down in advance 
of the wet season, freeing up capacity in the lake itself and providing 
downstream ancillary benefits like hydrating wetlands, recharging the 
aquifer for urban water supply, and mitigating against fire risk in 
Everglades National Park. In specific technical terms, in the Regional 
Simulation Model (Basin) used in LOSOM, the flows sent south are not 
directly linked to conditions in the Everglades, but instead specified 
as flow to the Stormwater Treatment Areas (STAs). The Basin model 
should use the Everglades demands from the Regional Simulation Model 
(Everglades and Lower East Coast Service Area) to determine what, if 
any, Everglades demands can be met from lake operations using the 
infrastructure configuration assumed in the LOSOM process.
    By refusing to consider the regional benefits of sending water to 
the Everglades in the LOSOM process, the Corps is inexplicably failing 
to add to their water management toolbox a powerful tool to better 
balance and reduce risks associated with high water in Lake Okeechobee 
and low water downstream in the Everglades. In other words, the 
Everglades itself can help the Corps protect the Herbert Hoover Dike 
from high water and coastal communities from harmful discharges with 
relatively minimal investment.
    Unlike most places in South Florida, the Everglades needs to be wet 
all the time. It needs to be very wet in the wet season and less wet in 
the dry season, but wet, nonetheless. This is not scientifically 
controversial--peat soils in the central and southern Everglades formed 
over thousands of years in wet conditions--drying out very rarely, if 
ever. Today, there are Everglades peat soils that dry out every single 
year. And when peat soils dry out, they can be lost through oxidation 
or even catch fire, resulting in a loss of habitat, impacts to the 
Everglades food chain, and increased carbon emission into the 
atmosphere. We have a saying at the Foundation--``keep the Everglades 
wet for `peat's sake.' '' While downstream infrastructure constraints 
currently limit our ability to move a lot more water during the wet 
season, projects like the Central Everglades Plan and Tamiami Trail 
bridging have been incrementally reducing those constraints and will 
continue to do so over the next decade.
    Moving water south in the dry season, however, is not generally 
constrained by infrastructure but, instead, by the rules that govern 
operations, including Lake Okeechobee. In the early dry months 
(December, January, and February), rainfall is typically low in the 
region and water levels in the Everglades drop quickly. Falling water 
levels in the Everglades is not inherently bad because water levels are 
supposed to fall in the dry season. However, because of how we 
currently operate the system, dry season water levels in the Everglades 
often drop too quickly, particularly in Everglades National Park. 
Because the Everglades has been cut off from Lake Okeechobee, there is 
rarely enough water in the Everglades to last all dry season long. Here 
is where the opportunity lies.
    If the Corps allowed itself to consider moving water south to the 
Everglades during the dry season as a water management strategy, doing 
so could have multiple benefits throughout the system. Peat soils in 
the Everglades would stay wet longer, which correspondingly helps to 
improve recharge for the Biscayne aquifer, which is the primary 
drinking water source for millions of Floridians. The corresponding 
upstream benefit of keeping the Everglades wet is that the lake levels 
would be lower, safer, and cleaner more often, thereby reducing dike 
failure risk for communities south of the lake and discharge risk for 
coastal communities east and west of the lake.
    Lower lake levels are often characterized as posing grave water 
supply risks. When evaluating such characterizations, a fundamental 
point should be considered. Low lake water supply-related risks are 
often unfairly evaluated against a status quo that is already sharply 
skewed against the Everglades, coastal communities, and urban water 
supply. The most obvious example of the unfairly skewed status quo is 
that agricultural irrigation dominated in this area by sugarcane 
currently enjoys water supply privileges from the lake that other 
interests, including the Everglades and downstream urban water users, 
do not enjoy. Just this past year, in December, January, and February, 
water was held back in the lake and not sent to the Everglades, so that 
agriculture users could receive 70 billion gallons from the lake in 
March and April, lowering the lake by more than half a foot. While 
agricultural users received all the water they wanted during the driest 
time of the year, wildfires raged in parched areas of Everglades 
National Park, and one of the two major canals supplying water to 
Broward County, home to 2 million people, was rationed. It is obvious 
to everyone who watches water management in South Florida that the 
Corps' current rulebook hoards water in the lake in the early dry 
season, primarily for the benefit of one user group, to the detriment 
of downstream needs, and at an increased risk for many communities.
    The status quo unfairly delivers most of the risk to downstream 
users, including the Everglades and the coastal estuaries. But a lower 
Lake Okeechobee re-balances those risks, albeit constrained by the 
current infrastructure, and represents a more fair and equitable 
approach to water management. To the extent that there are other low-
lake risks, the state of Florida could reduce them through its own 
infrastructure investments, regulatory and policy decisions, and 
operational refinements--examples include helping the City of West Palm 
Beach, the City of Okeechobee, and the Seminole Tribe of Florida reduce 
water supply risks posed by a lower lake.
    The reality in South Florida is that, next to rainfall, Lake 
Okeechobee is the single most hydrologically significant variable in 
the region. The extent to which we operate the lake to fluctuate safely 
and balance water demands is the most important variable we can control 
to accommodate competing needs for water supply and flood protection. 
The less the lake can fluctuate safely, the less storage the lake 
provides, which we know has negative implications for many water-
related needs of the region. In 2020, the lake should be managed in a 
way that best reflects modern values and the 21st century Florida 
economy. There was an attempt this summer by certain interests to 
convince this Committee and the Committee's counterpart in the Senate, 
to insert language into this WRDA bill that would have expanded 
decades-old water supply privileges. That language would have prevented 
today's debate about what constitutes ``fair and equitable'' or 
``optimal'' when it comes to operating Lake Okeechobee. We are deeply 
grateful that both chambers rejected this approach, because Floridians 
have a right to debate what ``balance'' means for Florida's water 
future, not only as we confront the unintended consequence of our past 
through restoration, but also as we meet the demands of our present and 
rise to the challenges of our future.
    For more than 20 years, this Committee has stood by Florida and by 
America's Everglades as we have worked to align our infrastructure with 
our values and our evolving economy. The Everglades Foundation is 
deeply grateful and, as a science-based organization, we are determined 
to identify and bring to government's attention every opportunity to 
make things better for America's Everglades and for the people of 
Florida in the long and short term. Thank you.

    Mrs. Napolitano. Thank you for your testimony. And now we 
will proceed to questions of the witnesses from the Members, 
and we will, again, use the timer to allow 5 minutes of 
questions from each Member. If there are additional questions, 
we might have a second round. But I have another hearing on the 
Salton Sea, which is very important in California, and thus I 
will begin the questioning. And my first question goes to 
Secretary Valenstein.
    Does the State of Florida continue to support the goal of 
full implementation of CERP?
    Does the State see challenges in full implementation?
    And what are some of the actions we can take to do this?
    Mr. Valenstein. Thank you. We are absolutely committed to 
the full implementation of CERP, and we are greatly 
appreciative of our Federal partners.
    Again, as I mentioned in both my written and oral comments, 
we have seen a real surge of support for environmental issues 
here in Florida, and water quality. We thank our delegation, 
and we thank Congress for continuing to authorize projects in 
WRDA, and continuing strong funding. Again, we have seen record 
funding from this administration, and support from this 
Congress, and that is absolutely making a difference here in 
Florida.
    I think you have heard from every presenter, right now is 
the renaissance of Everglades restoration. We have projects 
moving, we have groundbreakings, we are having ribbon cuttings. 
And within the next 5 years, we will see a fundamental 
difference of how water movement in south Florida works. And 
that is to your----
    Mrs. Napolitano. You mentioned in your testimony the 
passage of Senate bill 712, the Clean Waterways Act, in June. 
What does this law do to assess the challenges, and when will 
it be enacted?
    Mr. Valenstein. Sure, so one of the things we take very 
seriously here in Florida, especially under Governor DeSantis, 
is, as I mentioned in the testimony, we can't change the 
dynamic in south Florida without fixing discharges from Lake 
Okeechobee, which is a water supply and water control issue.
    Aside from that, the State takes very seriously water 
quality issues. And that is what this legislation was meant to 
address, was to ensure that we were taking all the steps 
necessary. And so this comprehensive legislation looks at each 
of the sources of nutrients in Florida.
    So for septic tanks, it moves those permitting programs to 
the Department of Environmental Protection, and has us, for the 
first time in Florida history, permitting septic tanks as a 
source of nutrients. It enforces against sanitary sewer 
overflows, with a 100-percent increase in penalties for 
sanitary sewer overflows from utilities. It has us beginning to 
modernize what was already a leading stormwater regulatory 
structure in the United States, but it has us modernizing it 
even more, to look at ways in which stormwater infrastructure 
can capture and treat nutrients. And lastly, it has us taking 
strong steps forward in the management of agricultural sources 
of nutrients, with much greater inspection authority 
enforcement against agriculture.
    Mrs. Napolitano. And when will it be enacted?
    Mr. Valenstein. It has been signed into law, it was passed 
unanimously by both the house and the senate. As you were 
mentioning, the broad bipartisan support----
    Mrs. Napolitano. When will it be enacted, sir?
    Mr. Valenstein. The legislation is already enacted, so it 
unanimously passed. It is enacted. And then each element of it 
is already moving forward.
    So some items, such as the 100-percent increase in 
penalties, were automatic. Others are beginning rulemaking now.
    Mrs. Napolitano. Well, it will be good to see what is in 
it, to be able to determine whether it is going to be 
effective, and the way we would like to see everything work 
together.
    But I would like to ask you whether the National Academies 
of Sciences has a role in the Everglades. I understand that 
every 2 years they do an assessment of the progress on it.
    Mr. Valenstein. Absolutely, Chairwoman. So we work with the 
South Florida Water Management District, and have the 
relationship----
    Mrs. Napolitano. No, the National Academies of Sciences and 
the Everglades, I understand that they do an assessment every 2 
years.
    Mr. Valenstein. Correct, and we are part of the funding 
entity for that assessment, and contract with the National 
Academies of Sciences. We greatly appreciate a rigorous science 
review of our progress [inaudible] entity to do that.
    As I mentioned, our Governor strongly believes in the role 
of science, which is why he appointed the first chief science 
officer for the State of Florida.
    Mrs. Napolitano. Good. Thank you.
    Mr. Ritter, I only have a short time. What technologies 
have the farmers implemented to help with the water quality in 
the farm runoff, and how long have they been implementing them?
    Mr. Ritter. Yes, thank you for that question, and I would 
like to make note that, yes, the Tribal entities, as well as 
the agricultural entities, are very supportive of the CERP 
process.
    The EAA farmers have been implementing best management 
practices for now the past 26 years. Those practices have been 
improved through water management, through better water 
management, through better nutrient management, through better 
irrigation management technologies, and they have--actually, 
their goal was 25 percent reduction of phosphorus moving south 
towards the Everglades, and they have achieved that goal now 
for approximately 26 years, and----
    Mrs. Napolitano. Apparently, they need to do more, because, 
apparently, that is a continuing problem with the 
contamination. Thank you very much, sir. I appreciate it. I 
must now go to my next speaker, Ranking Member Westerman.
    Mr. Westerman. Well, thank you, Chairwoman Napolitano, and 
thank you to the witnesses for your testimony today. It is very 
informative.
    And Madam Chair, I just wanted to point out that we 
understand that--from some folks--that during Mr. Ritter's 
testimony, that although we can see him on grid view now, that 
he was not showing up across all platforms, due to potential 
technological issues. And we just wanted to ensure everyone 
that we could see him on some devices on our end, as we move 
into questions. And we can see him now.
    So, you know, as we consider the testimony today, and we 
look back and it has been 20 years since the authorization of 
CERP, I think everyone agrees that it is appropriate to take a 
fresh look at that. And the stakeholders that we have here 
today represent those who are most directly impacted by the 
outcomes of the program.
    You know, as I think about Lake Okeechobee I remember, as a 
kid, watching Bill Dance's fishing shows on TV, and seeing the 
big bass he was catching out of Lake Okeechobee. I have always 
been fascinated by the wetlands ecosystem there, and that 
phenomenal resource that you've got. And it is something that 
is important to the whole Nation.
    So I want to ask the panelists, what is the greatest 
challenge lying ahead for CERP? If you could, outline one 
challenge, and we will just go down the road.
    And as a followup to that, what can Congress do about it, 
outside of additional funding?
    Mr. Valenstein. Sure, so I will start, thank you.
    I think one of the most important things is removing 
regulatory burdens, and so any options--and you saw this with 
the authorization for the Everglades Agricultural Area--the EAA 
Reservoir, where the State took a new approach to design the 
project in an expedited manner, and then handed it over to the 
Federal Government. I think options for us to look at 
streamlining the partnership to allow us to get projects done, 
ask the basic question of what is the shortest distance between 
two points to get the project done, and functioning to protect 
the environment and protect the economy.
    And we look forward to working with this committee and 
others to ensure that happens.
    Mr. Westerman. Thank you.
    Who wants to go next?
    Mr. Goss. I would love to go next. And you mentioned 
funding, and you said that was off the table. But funding----
    Mr. Westerman. We all know that one.
    Mr. Goss. I know, so I won't belabor that one.
    But I will say one thing that I see is that the closer you 
are to a project, the more urgency you feel. You have been down 
to the lake, you have seen it. And sometimes we have a 
problem--or not a problem, but an inconsistency with our 
partner. And the Corps of Engineers, where the folks in the 
Jacksonville District feel the sense of urgency we feel in the 
State of Florida, that doesn't always trickle up inside the 
Beltway.
    And any help you can give us in helping folks inside the 
Beltway understand a sense of urgency we have, so that we can 
finish CERP, because we really want to finish it, and we are so 
close. And I know the Jacksonville District is a tremendous 
partner, and we are working very closely with them, and they 
want to finish it, too. So I think we can do that. And 
sometimes we need your help just to sort of instill that sense 
of urgency within the Beltway.
    Mr. Westerman. Thank you.
    Mr. Ritter. This is Gary Ritter with the Florida Farm 
Bureau Federation.
    From our standpoint, we feel like one of the biggest 
challenges with CERP is maintaining the wholeness of water 
supply for municipalities, local governments, for Tribal lands, 
and for agriculture while these projects are getting built and 
after them getting built. So we feel very strongly that the 
water savings clause that was enacted by Congress in 2000 is 
extremely important to remain whole during the process and 
after the process.
    So that is one of the biggest challenges, and we think we 
can provide that water, maintain the wholeness of everyone with 
their water supply, and we can restore the Everglades and 
protect that water supply, equally. So that is one of the 
things that we see as the biggest challenge, outside of 
funding.
    Ms. Estenoz. Congressman, this is Shannon Estenoz, and my 
response to that question is twofold.
    First and foremost, I will echo Chairman Goss' point about 
accelerating Corps of Engineers own internal processes. That, 
in my experience, the most constant barrier has been the sort 
of bureaucratic approach. I will give you an example.
    In 2018, the Congress asked the Corps to do a 90-day report 
on the Everglades Reservoir. It is now 612 days late. And so 
that is a perfect, concrete example of what happens to us.
    The second example I would give is more transparency when 
comparing costs. WRDA 2000 goes some distance to help explain 
to Floridians where water actually goes, who benefits, and who 
doesn't benefit, but that lack of transparency keeps Floridians 
from truly keeping account of costs, benefits, and risks.
    Mrs. Napolitano. Thank you very much for your testimony.
    I think your time is up, Mr. Westerman, and I think I will 
head up to Ms. Mucarsel-Powell.
    Ms. Mucarsel-Powell, you are on.
    Ms. Mucarsel-Powell. Thank you so much.
    First, I ask unanimous consent, Madam Chair, to enter my 
statement into the record.
    [Pause.]
    Ms. Mucarsel-Powell. Yes?
    Mrs. Napolitano. So ordered, yes.
    [Ms. Mucarsel-Powell's prepared statement follows:]

                                 <F-dash>
Prepared Statement of Hon. Debbie Mucarsel-Powell, a Representative in 
  Congress from the State of Florida, and Vice Chair, Subcommittee on 
                    Water Resources and Environment
    I'd like to thank Chairman DeFazio, Subcommittee Chairwoman 
Napolitano, Ranking Members Graves, Subcommittee Ranking Member 
Westerman, and my fellow subcommittee members for holding this 
crucially important hearing today.
    Everglades Restoration is the largest ecosystem restoration project 
in the world, and I cannot overstate its importance to South Florida. 
Not only does the Everglades ecosystem provide drinking water to 8 
million Floridians--over a third of the state's population, but it is 
the backbone of our economy in South Florida, and it's an important 
weapon in our fight against climate change.
    Restoring our Everglades to a condition that somewhat resembles its 
natural flow from 100 years ago is a monumental task that we've been 
working on for two decades now, and we have at least another decade to 
go.
    The goal is to move more water south. Not east and west--where 
residents too often face harmful algal blooms--but south, where the 
water can flow naturally through vegetation and grasslands that clean 
the water and then enter Everglades National Park to keep our wetlands 
wet, and provide freshwater into Florida Bay.
    I thank this Committee for its work to move this year's Water 
Resources Development Act through the House. Not only does it authorize 
additional CERP projects, but it includes provisions I fought for which 
will expedite the competition of the Everglades Agricultural Area 
Reservoir, increase transparency regarding water flows, and help us in 
the fight against harmful algal blooms.
    But we have so much more work to do, and we cannot wait another 
decade or more to see improvements in our ecosystem. I look forward to 
hearing our witnesses testify about the importance of moving water 
south, and how we can do so in a holistic and efficient manner. I hope 
today's discussion will shed some light on what else we can be doing to 
improve South Florida's ecosystem so more Floridians can benefit from 
the work that has already been done, and we can maximize benefits in 
the years to come.

    Ms. Mucarsel-Powell. Thanks so much.
    First I want to say thank you to Chairwoman Napolitano, 
Ranking Member Westerman, Chairman DeFazio, and Ranking Member 
Graves. Let me just say that from the very beginning, when I 
started in the 116th Congress, I have put Everglades 
restoration as the top priority. And working closely with my 
colleague, Brian Mast, and having bipartisan support, we were 
successful in passing the Water Resources Development Act, 
which actually addressed certain language in the bill that 
would expedite Everglades restoration. And it is critical for 
our environment, for the economy, for Florida.
    And I am very proud to see that we have such a great group 
of witnesses that really are representing all the different 
groups, so that we can have this conversation, this debate, so 
that the committee understands what we need to do, because we 
support, absolutely, agriculture, and we don't want to have any 
negative effects of protecting our environment, and then not 
helping our farmers. Absolutely not. That is why we are having 
this discussion here today.
    It is so important to have a healthy Everglades. And I 
don't want to talk too much about it, because I have been 
talking about this for 2 years now. But, you know, the health 
of our Everglades really provides us with clean drinking water. 
About 8 million Floridians depend on a healthy Everglades for 
our drinking water.
    And it is also the backbone of our economy, here in south 
Florida. It is definitely another weapon for us to help fight 
against the effects of climate change.
    So I want to start with a dear friend, one of my 
constituents that I am very proud to represent. Thank you so 
much, Elizabeth, for coming here today to the hearing.
    You know, I met Elizabeth a few years ago, when I was 
touring Florida Bay. This is before I came to Congress. And she 
is a sought-after charter fishing captain here in the Keys, but 
also such a prominent advocate for Everglades restoration.
    Ms. Mucarsel-Powell. And if you can, take a look at the 
images that I wanted everyone in the committee to see today.
    [Slide]

                                 <F-dash>
     Slide Submitted for the Record by Hon. Debbie Mucarsel-Powell

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Ms. Mucarsel-Powell. You will see images of our seagrass. 
It is something that, like I said, Elizabeth brought to my 
attention years ago, and something that she has been working 
on. On the left you will see the healthy seagrass. On the right 
you see dead seagrass floating on the surface of the water, 
which is obstructing light. And these pictures were taken in 
2015.
    So, Elizabeth, I want to start with you. Can you explain to 
us how you have seen the degradation and thousands and 
thousands of acres of seagrass dying? Can you explain to the 
committee the effects of that, not just for our economy, but 
also to marine life, and why it is so important to make sure 
that we protect seagrass in the Florida Bay?
    Ms. Jolin. Thank you so much for the question. And I know 
my time is limited. My favorite subject is seagrass, and I 
could go on and on and on.
    But the irony of this question and this issue with seagrass 
is that it lies under the water. So if you were to come to 
visit us here in the Florida Keys, and you sit on the beach, 
and you look out, you would have no idea that there is a 
problem. It is beautiful here. And yet, underneath the surface 
of the water, when we have the death of seagrass, it affects 
everything that relies on the water: all fish, all birds, our 
mangroves. It becomes a crisis.
    Here's a very specific example, and I will make this very 
brief. In the fishing industry--and again, this isn't the most 
important industry, but it is an example that we can talk 
about--10 years ago, when you would come for a fishing charter, 
we would go and we would promote you into fishing bonefish, red 
fish. Today we talk about how fun it is to catch sharks and 
barracuda, because that is what is prevalent in our water 
because of this degradation of our resource.
    When we have these higher species dominating the water, it 
is unfortunate. And we, as a businessman, businessperson, we 
are trying to run our charter business, and now we talk about 
how great it is to catch a shark. What we really wanted to do 
is catch these species that need a robust environment 
underneath the surface of the water. It is one example to take 
away today.
    Ms. Mucarsel-Powell. Thank you----
    Ms. Jolin. And might I----
    Ms. Mucarsel-Powell [continuing]. Elizabeth.
    And very quickly, because I am running out of time--I don't 
know how we ran out of time so quickly--Shannon, if you could, 
just tell us what the effects of dying seagrass has on our 
economy, and also why it is so important to expedite Everglades 
restoration for Florida.
    Mr. Goss. Well, as you just heard from the fishing 
community, it absolutely wipes it out when all of a sudden 
sharks are the best fish you can go fishing for. So that is a 
real problem for us, and it does impact the economy, because 
sportfishing is one of the large drivers of Florida's economy. 
So it does impact it.
    And what we need to do is move that water south into 
Florida Bay, and CERP allows us to do that. So the faster we 
can get more moving with CERP, the faster we can get water to 
Florida Bay to try and solve that seagrass problem.
    Ms. Mucarsel-Powell. Thank you. I am out of time, Madam 
Chair. Maybe I will have a second round of questioning later.
    Mrs. Napolitano. Our timer is frozen, so we will have to 
figure out how to keep time on it.
    But Mr. Webster, you are on.
    Mr. Webster. Thank you, Madam Chair, I appreciate you 
hosting this committee, and for the opportunity to talk about 
an awesome place in our world, and that is the Everglades.
    First I want to just say I was in the Florida Legislature 
for many years, three decades, and during that time, in the 
mid-1990s--I think it was 1994--we passed Everglades Forever. 
And that became sort of the start of the opportunity of doing 
and being included in the WRDA 2000 bill. During that time, I 
know that we had--and I am sad they are not here today, because 
we had the Miccosukees and the Seminoles there, along with the 
Corps of Engineers, and some of the cities and towns that are 
around there that depend on the water from the lake.
    Everybody was included. And I think the conclusion of the 
discussions during those years was that--that I was involved 
in--was the fact that we wanted to have everybody treated 
equal. That is where this whole idea of a savings clause was 
introduced.
    And many people think it was agriculture, or it was 
utilities, or somebody else that individually got that into 
that particular bill in 2000 in the Congress. But it wasn't. It 
was the State of Florida that demanded if it weren't in there, 
CERP would not be approved. And that was way back, 20 years 
ago, I think.
    And so, that is where I am coming from. I want to see 
everybody included, everybody a part of it, and no one 
overtreated or undertreated.
    So my first question is to Secretary Valenstein.
    On April 15th, the Corps reported the RECOVER Lake 
Okeechobee Stage Performance Measure, and that was approved, 
and with scientists recommending that the minimum target level 
of Lake O would be 12 feet. Do you see any reason to believe 
that this analysis by these scientists was flawed in any way, 
or draws any kind of incorrect conclusion?
    Mr. Valenstein. Thank you, Congressman, and good to see 
you.
    Mr. Webster. Good to see you.
    Mr. Valenstein. And I certainly appreciate your service, 
also, in the Florida Legislature.
    The discussion has been, as we work as a team to get large 
infrastructure projects online to be able to better manage the 
movement of water, and as we deal with the reality of algal 
blooms on Lake Okeechobee, in that interim period of time, how 
can we best serve all parties and avoid harmful discharges at 
the same time?
    And so I wouldn't say that I disagree with anything in that 
analysis, but I also believe, where we stand today, we have to 
continually reevaluate and look at every option we have to 
avoid discharges from Lake Okeechobee. And that certainly 
includes, very importantly at the moment, management of the 
height of Lake Okeechobee.
    And we appreciate the Army Corps of Engineers looking at 
options to avoid discharges through different management of 
Lake Okeechobee in the interim, as we wait for large-scale 
projects to come online. And we believe we should, every day of 
the year, be reevaluating, and not simply holding static on any 
prior analysis.
    Mr. Webster. Thank you.
    Mr. Ritter, I have heard and read here suggestions made 
that a single agricultural commodity is impacted by proposals 
to----
    [Audio malfunction.]
    Mr. Webster. Wow. Anyway, I got to--here is a question. 
Here is just--a single agricultural commodity would be impacted 
by water shortages.
    [Audio malfunction.]
    Mr. Palmer. Madam Chair, can we suspend the gentleman's 
time until we correct the technical difficulties?
    Mrs. Napolitano. We are having technical difficulties, 
everybody.
    Voice. Mr. Ritter, if you could mute during the question.
    [Pause.]
    Mr. Palmer. Madam Chairman, would you restore the 
gentleman's time?
    Mrs. Napolitano. All right, sir, you are on. You have got a 
minute, we have got about a minute.
    Mr. Ritter. Yes, sir. I know that it is a misconception. It 
is a misconception that there is one single agricultural 
commodity down in the EAA. If my memory serves me correct, we 
have sweet corn, we have rice, we have lettuce, cabbage, green 
beans, radishes, along with sugarcane. And if you go up to the 
northwest shore of Okeechobee you have cattle, citrus; 
northeast you have avocados and mangoes. And I am sure there is 
probably something that I have left out.
    But, you know, those are crucial to the Nation's winter 
food supply, and they feed roughly about 180 million Americans 
every year. So no, there is not just one agricultural commodity 
down there.
    Mr. Webster. Do you know how many direct or indirect jobs 
there are associated with that industry?
    Mr. Ritter. I didn't quite get the entire question, I 
didn't quite hear all of it. But I would say----
    Mrs. Napolitano. The time has expired.
    Mr. Ritter. I would say, in terms of direct and----
    Mrs. Napolitano. Your time has expired, Mr. Webster.
    If you will respond to the gentleman's question in writing, 
I would appreciate it. I am sure the staff would appreciate it. 
And we will go on to our next speaker.
    Ms. Eddie Bernice Johnson, you are next. You are on.
    Ms. Johnson of Texas. Thank you very much, Madam Chairman, 
and thanks to all of our witnesses who are here.
    I would like to ask unanimous consent to put my statement 
in the record. And at this time I have no questions. I yield 
back.
    Mrs. Napolitano. Thank you very much. We will consider 
those comments for the record.
    [Ms. Johnson's prepared statement follows:]

                                 <F-dash>
 Prepared Statement of Hon. Eddie Bernice Johnson, a Representative in 
                    Congress from the State of Texas
    Mr. Chairman, please allow me to thank you for holding this hearing 
to examine various perspectives on water management and operations as 
part of the Comprehensive Everglades Restoration Plan (CERP), as well 
as current challenges to the system including water quality, algae 
blooms, and impacts to the Everglades National Park and the Florida Bay 
estuary.
    From the blue-green algae overflows, hurricanes and floods, the 
issues surrounding the Florida Everglades are immense and ongoing. The 
committee is committed to tackling these issues and I look forward to 
working with my colleagues, the Corps and leaders in Florida.
    In Texas, we have our own water management issues that range from 
flooding to providing clean drinking water for all of our communities 
and neighborhoods. While water quality is primarily a state issue that 
affects everyone including agricultural business and recreation, the 
operation and restoration of the Lake Okeechobee, the heart of the 
South Florida ecosystem, is the responsibility of the Corp. It is my 
hope that we will be able to comprehensively address the needs of this 
ecosystem that significantly contributes to the economy of Florida.

    Mrs. Napolitano. We will move on to our next speaker, Mr. 
Massie.
    Mr. Massie, you are on.
    Mr. Massie. Thank you, Madam Chairwoman. I yield as much of 
my time as he might consume to my colleague and friend, Brian 
Mast from Florida.
    Mr. Mast. Thank you, Mr. Massie. I appreciate that greatly. 
And thank you for holding this hearing, Chairwoman and Ranking 
Member.
    I like to think that this is the Erin Brockovich story of 
my community, because this is how we are poisoned year after 
year. And I don't want anybody to make a mistake. We are 
poisoned. The Corps and the EPA have both stated the water that 
we are discussing right now is ``toxic,'' to use their words.
    Now, I negotiated this hearing during the committee 
proceedings for the Water Resources Development Act, a bill 
that is all about the Corps of Engineers and water projects, 
because a number of important policies to benefit all of 
Florida were stripped out of this bill in order to benefit one 
industry. This was done in the late-night hours, after months 
of bipartisan negotiations, Representative Mucarsel-Powell and 
myself working on this and others.
    The first thing that I want to say that was stripped, 
reducing ecological harm to Everglades National Park and water 
conservation areas. Now why, after us spending billions of 
dollars to fix the Everglades, would we not be able to put into 
that law--I got to ask it. I suspect it is because more water 
for the Everglades means that the growers south of the lake, 
those sugar-growing corporations, need to relinquish a death 
grip that they have on Florida's water being for them first, 
and everyone else second. That is why I think that happened, 
personally.
    The second provision that was stripped, protecting public 
water supply was stripped out of that bill. Now, you might look 
at that and say, you know, why did this happen? I can tell you 
that in my State of Florida, sugar lobbyists for me, they 
frequently disguise their death grip and their assaults on me 
as an effort to protect public water supply, but that is what 
it is. It is a disguise. It is a front.
    When we wrote protect public water supply in law, they 
fought and they had it stripped out. Another provision they had 
stripped out. They opposed protecting the integrity of the 
Herbert Hoover dike. We were not allowed to state in law, 
``protect the taxpayer-funded dike that protects people, that 
is operated by the Corps of Engineers.'' That is probably one 
of the stupidest things that I have heard since being in 
Washington, DC. And beyond this, God forbid that I ask the 
Corps not to send toxic water into my community.
    Now, there is a complicated patchwork of infrastructure, an 
even more complicated policy about where to move water, when to 
move water. And while all of the policies may be complicated, 
the goal is simple. It is use taxpayer dollars to store water 
for irrigation south of Lake Okeechobee, then demand that my 
community be the flood control for when too much water is 
stored, that we be the septic tank for this private water 
reservoir. And that is the problem.
    This is wrong. My community is not going to be an 
afterthought. We are not going to be flood control for U.S. 
sugar or anybody else. Just because they want to keep Lake 
Okeechobee artificially high, as Mr. Ritter has stated in his 
written and spoken testimony, even though it hurts the rest of 
Florida.
    Now, when the Army Corps has discharges to my community, 
they often test more than 60 times too toxic for human contact. 
However, it has been stated that every year since 1982 those 
that have needed water have gotten every drop of water that 
they need. My community, 9 of the last 12 years, have gotten 
toxic discharges. So 3 out of every 4 years we are getting 
poisoned because too much water is stored on that lake in the 
winter, when the Everglades need it, the Caloosahatchee needs 
it, other places need it, and there is more than enough water 
to go around for all of those water users.
    I say that this is the political equivalent to Stockholm 
syndrome, continuing to manipulate water policy to benefit 
those that are holding our State hostage right now. Again, 
winners versus losers.
    I would say this also. In 2019, the Army Corps of 
Engineers, they changed the way that they managed Lake 
Okeechobee in the dry season, dropping its levels down before 
hurricane season. That makes sense to everybody. So the 
Everglades got more water in the dry season. The dike was 
protected, which the Corps needs to do. My community wouldn't 
have to get used as a sewer and get toxic discharges. And it 
worked. They allowed the lake to recess naturally, everybody 
got the water they needed, we avoided discharges, even with a 
category 5 hurricane on our shores.
    So it brings me back to WRDA, where for months we worked on 
this bipartisan deal to improve dry season water management in 
Florida, rebalance the scales in favor of all of Florida's 
people, but it was not allowed to happen at the last minute. 
There is a lot at stake here.
    This hearing is important. Florida's future, Florida's 
economy, Florida's environment, Florida's safety and public 
health: that is why this hearing is so important. And it is why 
we have to fight to protect water supply, stop those toxic 
discharges, and defend our communities.
    And in that I will yield back to you, ma'am. Thank you for 
your time.
    Mr. Massie. And I yield back, as well.
    Mrs. Napolitano. Thank you, Mr. Massie.
    Thank you, Mr. Mast, and then we have next Mr. Palmer.
    You are on. You are recognized.
    Mr. Palmer. Thank you, Madam Chairman.
    Mr. Goss, there are two projects that are part of the 
Comprehensive Everglades Restoration Plan, the Western 
Everglades Restoration Project and the Lake Okeechobee 
Watershed Project that are being studied by the Corps of 
Engineers, who isn't exactly known for expeditiously completing 
studies. Do you have any idea when those studies will be 
completed?
    Mr. Goss. No, sir, I don't. You would have to ask the Corps 
that.
    Mr. Palmer. What benefit would completion of those two 
projects have, in terms of Everglades restoration?
    Mr. Goss. They would be helpful, because CERP is a big 
puzzle, and we are putting the puzzle pieces together slowly, 
so every piece of it helps so that we can ultimately move more 
water south and stop the harmful discharges that Congressman 
Mast was just talking about.
    Mr. Palmer. Madam Chairman, I yield the balance of my time 
to the gentleman from Florida, Mr. Mast.
    Mr. Mast. Thank you for yielding to me. I appreciate that 
greatly.
    Mrs. Napolitano. You are recognized.
    Mr. Mast. Thank you, ma'am.
    Mrs. Napolitano. Thank you.
    Mr. Mast. I want to go to Mr. Ritter.
    And again, if you could leave your microphone off until we 
begin, I know we have been having some issues.
    I represent farmers, as well. I care about them. They are 
friends of mine. I believe in the legal rights of all water 
users. You stated that in your written testimony. You spoke 
about the rights of all legal water users.
    You asked in your written testimony and spoken testimony 
about higher water for Lake Okeechobee, higher levels. You 
spoke about that in different ways. And I want us to have a 
real conversation about this, because it is important for both 
of us, and a number of other people in Florida.
    And my question to you is this. When we talk about rights 
of water users, I would like to think that my community and my 
environment--you wrote about both of those things--have the 
right to not be poisoned. And every other community, as well. 
The Everglades has the right to water. Your farmers and 
everybody else, they have a right to water. That is the truth.
    But what I want to ask you is, where does the right to 
water end? At what point does that end, where you have to hurt 
somebody else, somebody else has to be your flood control to 
keep that water higher, as you asked for?
    And that is an honest question. Where does the right to 
having more water end?
    Mr. Ritter. Congressman Mast, first of all, I appreciate 
your passion. I know you and I have probably spoken on a couple 
of occasions.
    I just want to reiterate that the Florida Farm Bureau 
Federation represents more than 300 commodities. We have worked 
with municipalities, and I don't think we are really saying--
and maybe we are saying the same thing--I don't think we are 
really advocating for higher lake levels. I think we are 
advocating for more of a balanced approach to lake levels.
    And I think what we are asking for is the water supply 
rights that we have been permitted for. And there is a number 
of agriculture not only south of the lake, but in the Lake 
Okeechobee service area that has permitted water through the 
water management district. And that is----
    Mr. Mast. Where does it----
    Mr. Ritter. That is all----
    Mr. Mast [continuing]. End, though, sir?
    Mr. Ritter. That remains----
    Mr. Mast. At what point of hurting somebody else----
    Mr. Ritter. We are just asking for that to remain whole.
    Mr. Mast. At what point of having to have toxic--literally 
toxic, I could submit for the record from the EPA and the Corps 
of Engineers, they said the water that gets discharged is 
toxic--at what point of asking for more water--because you did 
ask for that in your spoken testimony, going back to previous 
higher levels, and you wrote it in your written testimony--at 
what point does that say, listen, we are hurting other people, 
we are stepping on the Everglades, the Caloosahatchee, and 
other communities have to get toxic discharges to have higher 
waters on that lake. At what point to you does that right end?
    Mr. Ritter. Again, we are not asking for higher water on 
the lake. And when we get that water supply, remember, that 
goes south. That does not go east or west. We, the farmers down 
in the EAA--I think maybe even Shannon referred to 70 billion 
gallons during the springtime. But if you look at that, based 
on the 450,000 acres, irrigated acres down there, in my mind, 
that is a pretty efficient use of water, and you are really not 
getting any of that.
    Mr. Mast. So----
    Mr. Ritter. You are----
    Mr. Mast. Sir?
    Mr. Ritter. You are getting--remember, the Kissimmee 
River----
    Mr. Mast. Sir?
    Mr. Ritter [continuing]. Is the----
    Mr. Mast. In an effort to get an answer, let's speak about 
this ambiguously, then. I won't say ``you.'' In an effort to 
get an answer----
    Mrs. Napolitano. Mr. Mast, your time is up.
    Mr. Mast. No problem, ma'am. Yes, ma'am.
    Mrs. Napolitano. Yes. Mr. Palmer, thank you very much for 
yielding to Mr. Mast.
    And now, Mr. Mast, you are on for 5 minutes.
    Mr. Mast. Thank you, ma'am. I appreciate you recognizing 
me.
    So let's continue on this, sir. We will speak about this 
ambiguously. At what point does the right of somebody to ask 
for more and more water end, if somebody else has to get hurt 
to do it?
    My community has to get hurt in order for more water to 
stay on Lake Okeechobee because hurricanes come, the dike gets 
put at risk, even though we weren't allowed to say protect it 
in our recent bill. At what point for anybody does that right 
end to ask for more water? Should it end if you have to hurt 
somebody else to do it? Not you, anybody.
    Mr. Ritter. Again, Mr. Mast, I really appreciate your 
question, but the agriculture all around the lake is not asking 
for any more water. It is simply asking to remain whole with 
the permitted water that they have received from the water 
management district.
    Mr. Mast. Right, which is why I am asking. Let's talk about 
this ambiguously, sir. When does the right for somebody to 
demand or ask for more water end? Does that right end if you 
have to hurt somebody else to get it?
    Does the right for more water for somebody end if you have 
to hurt somebody to get it? Does that right end?
    Mr. Ritter. Again, Congressman Mast, with all due respect, 
we are not asking for any more water. We are just asking for 
our permanent allocation that we have received from the water 
management district that--it is based on permitting, just like 
any municipality would get permitted, just like any development 
would get permitted. We are not asking for any more water. We 
are just asking to remain whole.
    Mr. Mast. It sounds like we are not going to get an answer 
to that question.
    I want to take a moment and submit, Madam Chairwoman, a 
couple of things for the record.
    One is an email from----
    Mrs. Napolitano. So ordered.
    Mr. Mast [continuing]. The day of that hearing from the 
Florida Sugar Cane League stating this: ``strongly opposed to 
all amendments that affect Lake Okeechobee and its surrounding 
areas.'' I would like to submit that for the record. That is an 
email that went out that morning from the Florida Sugar Cane 
League.
    Mrs. Napolitano. So ordered.
    [The information follows:]

                                 <F-dash>
Email of July 15, 2020, from Ryan Weston, Florida and Texas Sugar Cane 
        Growers, Submitted for the Record by Hon. Brian J. Mast
From: Ryan Weston <XXXXXXXXXXXXXXXXXXXXXXXXXX>
Sent: Wednesday, July 15, 2020 [XXXX]
To: [XXXXXXXXXXXXXX]
Subject: WRDA--OPPOSE all except the Manager's amendment

    Dear [XXXXXX],
    The Florida Sugar Cane League (FSCL) is strongly OPPOSED to all 
amendments that affect Lake Okeechobee and its surrounding areas. The 
FSCL will NOT oppose the manager's amendment negotiated by Committee.
    The FSCL is greatly concerned that amendments filed in the last few 
days impact not only our employees, communities and farms BUT also 
numerous Congressional districts and dozens of stakeholders that were 
not consulted.
    Because it impacts such a large portion of South Florida, water 
legislation has traditionally been negotiated by all affected Members 
so that there is consensus and agreement.
    Congressman Webster worked diligently with Chairman DeFazio, 
Subcommittee Chairwoman Napolitano, Ranking Member Graves, Subcommittee 
Chairman Westerman, Committee staff and Congressman Spano to reach 
agreement on the manager's amendment. We greatly appreciate those 
efforts and all of the Members who assisted.
        Sincerely,
                                               Ryan Weston,
                              Florida and Texas Sugar Cane Growers.

    Mr. Mast. I would also like to submit what was the 
bipartisan agreement that we had worked on prior to that, 
discussing ecological harm to the Everglades, protecting the 
Herbert Hoover dike, protecting public water supply. I would 
like to submit that for the record, as well. I appreciate that.
    Mrs. Napolitano. So ordered.
    [The information follows:]

                                 <F-dash>
Bipartisan Agreement in Drafting the Water Resources Development Act of 
          2020, Submitted for the Record by Hon. Brian J. Mast
Sec. 3xxx. Lake Okeechobee Regulation Schedule.

    (a)  In General.--The Secretary shall manage the operation of Lake 
Okeechobee during the dry season to prioritize and balance:
      (1)  reducing ecological harm to Everglades National Park and the 
Water Conservation Areas, including reducing the risk of wildfires and 
soil loss;
      (2)  reducing the likelihood of releasing harmful algal blooms 
and ecologically damaging water flows during the wet season from Lake 
Okeechobee to coastal estuaries;
      (3)  contributing to ecologically beneficial dry season flows to 
the Caloosahatchee Estuary;
      (4)  protecting the integrity of the Herbert Hoover Dike;
      (5)  protecting public water supply by supporting the recharge of 
the surficial aquifer system; and
      (6)  supporting the maintenance of water levels in coastal canal 
systems to address the threat of saltwater intrusion.
    (b)  Additional Considerations.--In carrying out its review of the 
Lake Okeechobee regulation schedule, pursuant to section 1106 of the 
Water Resources Development Act of 2018 (132 Stat. 3773), the Secretary 
shall evaluate the implications of prohibiting releases from Lake 
Okeechobee through the S-308 and S-80 lock and dam structures----
      (1)  on the operation of the Lake in accordance with authorized 
purposes; and
      (2)  on the integrity of the Herbert Hoover Dike.
    (c)  Coordination.--The Secretary shall, to the maximum extent 
practicable, coordinate with Federal and State agencies responsible for 
monitoring and notification of water quality pollutants, including 
cyanobacteria levels, in Lake Okeechobee.
    (d)  Considerations.--Nothing in this section shall be construed 
to:
      (1)  limit the State of Florida's authority to allocate water 
under state law or restrict the State of Florida's authority to 
prioritize and distribute water while in the water shortage management 
band or range identified in the Lake Okeechobee operating regulations, 
manuals or plans;
      (2)  alter or amend the State of Florida's obligations to meet 
water quality standards in the Everglades Protection Area or on tribal 
lands;
      (3)  alter or amend the State of Florida's obligations under the 
Water Rights Compact Among Seminole Tribe of Florida, the State of 
Florida and the South Florida Water Management District;
      (4)  alter the obligations of the Secretary under federal 
environmental law; or
      (5)  alter the obligations of the Secretary to provide flood 
protection under existing authorities.

    Mr. Mast. I would ask this question to you, Mr. Goss, and 
to the others on this panel. Maybe you could answer that 
question to me. When does the right for somebody to ask for 
water end? Does it end if you have to hurt somebody else in 
order to get it?
    [Microphone unmuted]
    Mr. Mast. Madam Chairwoman, I think you are not muted.
    Mr. Goss. I am sorry, Congressman Mast, was that to me?
    Mr. Mast. Yes, certainly to you, Chairman Goss, but to the 
other panelists, as well. Does that right to ask for water, 
more water, end if you have to hurt somebody else to do it?
    Mr. Goss. I don't know the specific answer to that, but I 
do know that our consumptive use permits do state that you 
don't get water when there is a drought, you are not guaranteed 
to water. And there is a beneficial use associated with that. 
So that may be sort of a backwards answer to your question.
    Ms. Estenoz. Mr. Mast, this is Shannon Estenoz. What I 
would say follows up on Chairman Goss' point.
    In the State of Florida you don't have a right to water. 
You have a permitted use that stops where your use is causing 
harm to the resource. It is called the No Harm Standard. And 
you don't have a right to use water under a permit if it is 
causing harm.
    And what is happening here is that the current rules, they 
tend to do two things. They tend to hoard water in the lake 
during the dry season, particularly the early dry season, they 
hoard water in the lake so that it is available primarily for 
the Lake Okeechobee service area late in the dry season.
    Mr. Ritter referenced the 70 billion gallons, as if it were 
a reasonable amount of water. But you need some context for 
that. Seventy billion gallons, first of all, is a half a foot 
off the lake. It is little more than half a foot off the lake. 
In the 7 months prior to that 70 billion gallons being taken, 
Everglades National Park and the Central Everglades were given 
basically zero water, to the point that Everglades National 
Park, by April, caught on fire because water had dropped 2\1/2\ 
feet before the ground surface.
    And one of the two major canals going into Broward County, 
my home county, population 2 million, was being rationed. And 
yet March and April, the Everglades Agricultural Area took that 
70 billion gallons of water. And those were conditions, 
Congressman, that were moderate to mild drought, not even a 
severe drought, and we suffered those kinds of impacts.
    Mrs. Napolitano. Your time is up, Mr. Mast.
    Mr. Mast. Thank you, Chairwoman.
    Mrs. Napolitano. I thank--you are very welcome. I thank you 
for your--all your participation.
    And I would like to add just a little bit of my own 
concerning water. You talk about permitted allocations. In 
California we have an issue, too, because it is wet water and 
it is paper water. What was allocated is not necessarily what 
you are going to get, because of the change in climate, 
whatever the reason, it is not the same. So we have to take 
into consideration all those climate changes, and the right of 
people with the water, and how much water goes into areas that 
are not getting water, especially if it is not the quality of 
water that people deserve and should be protected.
    So I thank you, everybody, for your testimony.
    I ask unanimous consent that the record of today's hearing 
remain open until such time as our witnesses have provided 
answers to any questions that may have been submitted to them 
in writing.
    Mr. Westerman. Madam Chair?
    Mrs. Napolitano. Yes, sir?
    Mr. Westerman. We have Representative Gonzalez-Colon on the 
meeting, and I don't think she ever got recognized.
    Mrs. Napolitano. Miss Gonzalez-Colon?
    Miss Gonzalez-Colon. Yes, ma'am.
    Mrs. Napolitano. OK. Oh, I see. Where are you? I don't see 
you on--oh, there you are, Jenniffer. OK, you have 5 minutes, 
ma'am.
    Miss Gonzalez-Colon. Thank you, Madam Chair. I would like 
to yield my time to Representative Brian Mast.
    Mr. Mast. Thank you, Representative.
    Mrs. Napolitano. Mr. Mast, you are on.
    Mr. Mast. Thank you, Miss Gonzalez-Colon, I appreciate 
that.
    Since I have another moment here, is Noah Valenstein still 
on? I see his video cut off, but I don't know if that just cut 
off for a moment. Do we still have Secretary Valenstein on?
    Mr. Valenstein. Yes.
    Mr. Mast. I hear it now.
    So, Secretary, I would ask you, as well.
    I have submitted for the record here the comments from the 
EPA noting what is toxic on Lake Okeechobee.
    Madam Chairwoman, you spoke initially in your comments 
about possibly creating harmful algal blooms with these 
discharges. I need to correct a mistake, in that it can create 
situations for harmful algal blooms, but what I am speaking 
about specifically in my questioning are the algal blooms that 
are already present on this freshwater lake that reach a level 
many times--60 times--too toxic for human contact, according to 
the EPA and the Corps of Engineers, and those being taken out 
of that separate body of water, and then dumped into my 
community. That is the specific piece that I am speaking of.
    So, Secretary Valenstein, I would ask you, as well. Can you 
make any confirmation of toxicity levels during those 
summertime months at different times of water on Lake 
Okeechobee?
    Mr. Valenstein. Absolutely, and thank you, Congressman 
Mast, for your work to help us work with our Federal partners, 
and reevaluate opportunities to make sure we are not having 
harmful discharges to our coast. Certainly, that was a 
conversation that came up during Governor DeSantis' Transition 
Committee, where you chaired the environmental portion of that, 
and something that the Governor is laser-focused on, too.
    As you know, Lake Okeechobee and the whole ecosystem was 
dramatically altered by the Army Corps of Engineers in a 
misguided attempt decades and decades ago, believing the 
wetlands were not something we should have. We now recognize 
that was an absolute mistake, and are trying to rebuild the 
system. But that has had devastating consequences to how Lake 
Okeechobee accepts and is able to release water at the moment.
    Certainly throughout the summer months, we are seeing 
algae-producing microcystin levels on a regular basis, up to 20 
parts per billion. The highest we have seen this year, we 
recorded in the center of Lake Okeechobee one sample that was 
800 parts per billion around June 13th. And so there are 
absolutely significantly high levels of microcystins that have 
been produced.
    And certainly, while we are working on water quality 
surrounding Florida--and you have seen, as there haven't been 
releases from Lake Okeechobee, and with the investments that 
this Governor is making, we are making progress in water 
quality throughout Florida--but, with the flip of a switch, 
that can all be overcome by releases from the lake.
    And so as we bring projects online, as the State works on 
water quality issues outside of larger movement of water, which 
is Corps projects that the State is working with, cooperative 
management of the lake--keep in mind the impact those 
discharges have is critical. And so this is the second year we 
are in that the Corps has looked at ways to, hopefully, 
minimize discharges. We strongly support that, and look to do 
anything we can to support that.
    Mr. Mast. Thank you, Secretary Valenstein. You just said 
something very important. The EPA's recommended numbers where 
humans shouldn't come in contact with those toxins that you 
noted there are 8 micrograms per liter, or 8 parts per billion.
    I have a bill that I worked to get in the recent Water 
Resources Development Act that asked not that the Corps end all 
discharges into my community, but said when it reaches the 
level of toxic. When it reaches the level of toxic. Can we at 
least say that? Don't discharge the water when it is poisonous 
into my community.
    You just said that at one point this summer it was 800 
parts per billion. EPA said, if you are a human, don't touch it 
over 8 parts per billion. That is an important distinction.
    If we would have started this summer at 12\1/2\ feet, where 
I believe is where Mr. Ritter wants to start this summer's lake 
levels, instead of down at 11 feet, we would have been having 
discharges of those toxic waters by July 4th, all the way into 
August, all the way into September, and all the way right up 
until today, had we not worked with those lower lake levels.
    Lower lake levels work to get the Everglades water, the 
Caloosahatchee water when they need it, protect the Herbert 
Hoover dike, which means protecting those people that live in 
those communities around the dike, and protecting communities 
from toxic discharges.
    So, again, I want everybody to get every single drop of 
water that they need. But I have to stand firm in saying we 
cannot go out there and make water promises when it means 
having to poison another community to do so.
    And in that I thank you for yielding me your time, Miss 
Gonzalez-Colon, and Madam Chairwoman.
    Mrs. Napolitano. You are welcome, Mr. Mast. And now I 
believe we have Mr. Carbajal waiting to be speak.
    You are on, Mr. Carbajal.
    Mr. Carbajal. Thank you, Madam Chair. I would like to yield 
my time to Representative Mucarsel-Powell.
    Ms. Mucarsel-Powell. Thank you so much, Representative 
Carbajal. Yes, my time was cut very short.
    And as you can all hear, the passion in my colleague, 
Representative Mast, and also in my voice, it is because we are 
trying to find solutions for everyone, all the stakeholders in 
Florida.
    So then, my first question, very quickly, yes-or-no answer 
to all of the panelists that are here with us this morning: Do 
you think that the status quo as it stands today, the way that 
the lake is being managed, is acceptable?
    Ms. Jolin, Elizabeth?
    Ms. Jolin. No.
    Ms. Mucarsel-Powell. Ms. Estenoz?
    Ms. Estenoz. No, Congresswoman.
    Ms. Mucarsel-Powell. Secretary Valenstein?
    Mr. Valenstein. I don't believe in the status quo.
    Ms. Mucarsel-Powell. Chairman Goss?
    Mr. Goss. No. As I said in my opening remarks, the status 
quo has to change.
    Ms. Mucarsel-Powell. Thank you. Mr. Ritter?
    Mr. Ritter. That is a tough question, but I would say the 
way it is being managed right now is----
    Ms. Mucarsel-Powell. It was what? What was that?
    Mr. Ritter. I would say the 12 to 15, how the lake has been 
managed in the past, we agree with that.
    Ms. Mucarsel-Powell. You agree with that? And so you are 
the only----
    [Audio malfunction.]
    Ms. Mucarsel-Powell [continuing]. That the status quo is 
acceptable.
    So we have all of you here this morning so that we can 
listen to each other and try to find ways to manage the lake so 
that we don't poison communities to the east and west of Lake 
Okeechobee, so that we can find ways to get that water flowing 
south.
    Mr. Ritter, you mentioned in your testimony that completing 
CERP was incredibly important, and that is why we have all been 
working together to try to expedite this.
    You also say in your testimony that it is important to 
comply with the sequencing outlined in the Integrated Delivery 
Schedule.
    But according to the IDS, CERP won't be completed for 
another 10 years, at a minimum. And I can tell you that in my 
area down here in south Florida, we can't wait that long for 
relief. And I know that in other areas it is the same.
    So what do you suggest, Mr. Ritter? What do you think we 
need to do to get more water flowing south during the dry 
season, before CERP is completed?
    Mr. Ritter. Well, I think the water management district and 
the Corps of Engineers have already started doing that. I mean, 
they have worked on increasing the Tamiami Trail and the flow 
underneath the Tamiami Trail.
    I think one of the things that you have to be careful about 
in relying on nature, especially if you bring the lake down to 
11 feet, is if you don't get the wet season rainfall. Then you 
run the risk, when you come around to the next fall and winter 
coming, if you have a drought, then nobody has any water, and 
we are all under a water shortage situation.
    I come from a small community----
    Ms. Mucarsel-Powell. Quickly, because I have such a short 
time.
    Mr. Ritter. I know, I apologize. I am very passionate about 
it, too, like Representative Mast. I apologize.
    Ms. Mucarsel-Powell. Yes, Mr. Ritter, very quickly, is your 
stance that you support that we need to get more water flowing 
south?
    Mr. Ritter. Obviously, yes. I mean, we all feel--
agriculture, along with everyone else, is on board with CERP 
and comprehensive Everglades restoration, but we have always 
been there. We have been there from the very beginning. And, 
you know, we have actually, more than any one entity, we have 
provided over 100,000 acres of land for----
    Ms. Mucarsel-Powell. Thank you.
    Mr. Ritter [continuing]. CERP south of the lake.
    Ms. Mucarsel-Powell. Thank you, thank you. I appreciate 
that.
    Ms. Estenoz, can you talk a little bit about why the status 
quo can't remain, and what are some of the solutions that we 
need to be talking about, so that we can stop discharging these 
toxic algae blooms that are going into the east and west of the 
river, but at the same time find some sort of solution for us 
down here, so that we can restore the Florida Bay?
    Ms. Estenoz. I think operational flexibility is key, and a 
couple of witnesses have said that. It is not enough just to 
build infrastructure, that is the first step. The second step 
is to operate it for the benefit of all.
    The harm being experienced in your district, Miami-Dade, 
Monroe County, and the harm experienced in Mr. Mast's and Mr. 
Rooney's districts, those are measurable, and real, and 
perceptible.
    Twelve years ago, when you looked at the last time the 
Corps rewrote the Lake Okeechobee operating rules, there is 
some information there that firmly pointed out that they 
actually--the last time they could actually document economic 
harm to the agricultural area we are talking about due to water 
management or drought was 1982. Congresswoman, I was 14 years 
old. The last time the Everglades suffered from water 
management was, you know, an hour ago. It will be tomorrow. The 
last time we suffered from drought and dry season in the 
Everglades, and the Biscayne Aquifer resilience took a knock, 
was this last dry season.
    So when the Farm Bureau says they--you know, we have 
[inaudible] that we have to benefit everyone, I 100 percent 
agree. We want to rebalance not 10 years from now, but let's 
incrementally make things better at every possible opportunity 
we can.
    Mrs. Napolitano. The time has expired.
    Ms. Mucarsel-Powell. Thank you so much. Thank you----
    Mrs. Napolitano. Ms. Mucarsel-Powell, I am sorry, but your 
time has expired. I let you run a little longer than normal.
    But I am sorry to cut you off, Shannon.
    I would like to ask unanimous consent that the testimony of 
the Friends of the Everglades be submitted for the record.
    So ordered.
    [The information follows:]

                                 <F-dash>
     Statement of Eve Samples, Executive Director, Friends of the 
    Everglades, Submitted for the Record by Hon. Grace F. Napolitano
    Dear Chair Napolitano, Ranking Member Westerman, and honorable 
members of the subcommittee:
    On behalf of Friends of the Everglades, founded by Marjory Stoneman 
Douglas in 1969, and Center for Biological Diversity, which joins us in 
this testimony, thank you for conducting today's hearing on the world's 
largest environmental restoration project--the Comprehensive Everglades 
Restoration Plan--and the inextricably linked challenge of water 
management in Florida.
    This is a timely and urgent matter for some 9 million residents who 
live in the 16-county Greater Everglades ecosystem, reaching from 
Orlando south to the Florida Keys. As you sit today, Lake Okeechobee's 
water levels are rising and the Army Corps of Engineers has warned 
coastal communities that polluted discharges from the lake to the 
Caloosahatchee and St. Lucie Estuaries may be forthcoming--again.
    It's been only two years since Florida's historic toxic-algae 
blooms of 2018 that killed marine life, threatened human health, and 
hamstrung businesses on the state's southeast and southwest coasts. 
That crisis followed a similarly disastrous toxic-algae bloom in 2016, 
which was preceded by decades of periodic Lake Okeechobee discharges 
that damaged ecosystems and businesses along the northern estuaries. 
Even when toxic algae is not present in Lake Okeechobee water, massive 
discharges to the St. Lucie and Caloosahatchee are harmful because they 
deplete salinity levels and carry phosphorus, nitrogen and sediment to 
the delicate estuarine systems. While water sent south to the 
Everglades must be cleaned, the water discharged east and west is 
entirely untreated.
    The crisis of too much water for the northern estuaries is 
especially confounding because the southern end of the Greater 
Everglades ecosystem receives too little water during the dry season. 
Parts of Everglades National Park burned this spring \1\ during the dry 
season, while Florida Bay, south of the park, regularly suffers from 
hypersalinity due in part to lack of freshwater from the north. The 
solution, as identified in CERP, is to store, treat and send more water 
south from the lake to the Everglades. The EAA Storage Reservoir aims 
to address this problem--but, unfortunately, its reduced scale calls 
into question whether it will be effective in mitigating the Army 
Corps' harmful discharges from Lake Okeechobee and sending clean water 
to the southern Everglades.
---------------------------------------------------------------------------
    \1\ https://www.usatoday.com/story/news/nation/2020/04/28/
everglades-wildfires-if-coronavirus-restrictions-lift/3030271001/
---------------------------------------------------------------------------
    We are grateful that the Army Corps and South Florida Water 
Management District have, since 2019, demonstrated new willingness to 
protect residents and ecosystems from toxic algae by modifying Lake 
Okeechobee operations and finding new places to store water south of 
the lake. However, the gains have been only incremental.
    All of the factors that caused the 2018 toxic-algae crisis continue 
to exist today. In our testimony, we will outline potential near-term 
and long-term solutions for saving the only Everglades in the world, 
protecting the health of residents who live near it, and ensuring this 
vital ecosystem remains an economic engine for the state of Florida.
                   The Everglades ecosystem and CERP
    Over the past century, half of the greater Everglades has been lost 
to development. The remnants of the system have been drained, 
channelized and otherwise manipulated in the name of flood control and 
water supply, resulting in too little water to Everglades National Park 
and Florida Bay, and too much water to the northern estuaries that 
serve as relief valves for Lake Okeechobee: the St. Lucie and 
Caloosahatchee estuaries, as well as Lake Worth Lagoon.
    What's left of the Everglades is severely degraded. Water remaining 
in the system has been polluted by phosphorus, nitrogen, mercury, and 
other contaminants introduced by agriculture, urban development, and 
industry.\2\
---------------------------------------------------------------------------
    \2\ https://www.nap.edu/read/25198/chapter/1#xi
---------------------------------------------------------------------------
    When Congress passed CERP 20 years ago, it was with the recognition 
that significant action was needed to salvage the Everglades. We are 
still waiting to see on-the-ground results.
    The cost of the 68 authorized CERP projects increases with each 
passing year. From 2020-2030, an estimated $7.4 billion will be needed 
for total South Florida Ecosystem Restoration Construction, which 
includes CERP and other Everglades-related projects.\3\
---------------------------------------------------------------------------
    \3\ https://evergladesrestoration.gov/content/ids/meetings/091720/
IDS_2020_Update_
Public%20Workshop.pdf
---------------------------------------------------------------------------
    A former Friends of the Everglades executive director once said, 
``The Everglades is a test. If we pass, we may get to keep the 
planet.'' Given the poor water quality and toxic algae blooms we've 
witnessed in recent years, it is difficult to claim we have a passing 
score. But it is not too late: With bold thinking, flexible operations 
and political will, we can rescue the Everglades ecosystem yet--thereby 
protecting the millions of people and thousands of species that rely on 
it.
                  Human health and toxic-algae blooms
    Water management in Florida historically has weighed the competing 
interests of flood control, water supply, water quality and natural 
systems. A growing body of evidence suggests our management of water in 
Florida also has a direct impact on a fifth and critical interest: 
human health.
    Harmful Algal Blooms (HABs) are the waterborne threat of our time, 
and our growing understanding of the health risks they pose create new 
urgency for Everglades restoration. Toxins in red tide are known to 
harm humans and marine life, and are exacerbated by discharges from 
Lake Okeechobee.\4\ Mounting research indicates links between toxins 
found in cyanobacteria, also known as blue-green algae, and non-
alcoholic liver disease and neurodegenerative diseases (including Lou 
Gehrig's, Parkinson's and Alzheimer's diseases).\5\
---------------------------------------------------------------------------
    \4\ Medina et al (2020): Seasonal dynamics of terrestrially sourced 
nitrogen influenced Karenia brevis blooms off Florida's southern Gulf 
Coast
    \5\ Brain Chemistry Labs research: https://brainchemistrylabs.org/
new-blog/tag/BMAA
---------------------------------------------------------------------------
    During the toxic algae crisis of 2018, satellite imagery from the 
National Oceanic and Atmospheric Administration showed 90% of Lake 
Okeechobee's open water was covered with cyanobacteria. Without regard 
to the human-health risk, lake water was discharged to the coastal 
estuaries that summer, where it presented as noxious blooms along 
public waterfronts and private properties. In Southwest Florida, the 
cyanobacteria blooms prompted by Lake Okeechobee discharges commingled 
with toxins from a simultaneous red-tide bloom, posing risks that 
researchers are only beginning to comprehend.\6\ The health concerns 
presented by toxic algae threaten those living well away from the 
waterfront, too. Scientists at Florida Gulf Coast University found 
evidence that cyanobacteria can be aerosolized and travel more than a 
mile inland.\7\
---------------------------------------------------------------------------
    \6\ Metcalf et al (2020): https://link.springer.com/article/
10.1007/s12640-020-00248-3 and
    https://www.news-press.com/story/tech/science/environment/2020/07/
21/multiple-blooms-multiple-toxins-multiple-worries-new-study-sheds-
light-2018-s-disastrous-algae-crisi/5478751002/
    \7\ https://www.news-press.com/story/tech/science/environment/2019/
03/15/new-health-questions-raised-fgcu-research-toxic-algae-dust/
3176195002/
---------------------------------------------------------------------------
    Historically, the Army Corps has not considered Harmful Algal 
Blooms as an official factor in its management of Lake Okeechobee's 
water. In 2019, the Corps proposed a deviation to its Lake Okeechobee 
Regulation Schedule to allow for more flexibility when Harmful Algal 
Blooms are present in the lake. We applaud that flexibility, which has 
the added benefit of relieving pressure from the aging Herbert Hoover 
Dike.
    We hope to see the Army Corps build on that flexibility when it 
implements its Lake Okeechobee System Operating Manual (LOSOM) in 2022. 
We also are grateful to you, members of the Transportation & 
Infrastructure Committee, for passing a WRDA bill that keeps the so-
called ``Savings Clause'' out of LOSOM. Including it would have foisted 
20-year-old water-supply promises onto Lake Okeechobee management in 
the future. We hope to see the U.S. Senate follow suit by passing the 
WRDA bill.
    Long-term flexibility for Lake Okeechobee operations is critical; 
this problem is not going away. Scientific consensus is that HABs are 
increasing in magnitude, frequency and duration worldwide.\8\ It's 
critical that Everglades restoration efforts and Lake Okeechobee 
operations proactively address the risks.
---------------------------------------------------------------------------
    \8\ Congressional Research Service, Freshwater Harmful Algal 
Blooms: Causes, Challenges, and Policy Considerations (Aug. 20, 2018)
---------------------------------------------------------------------------
                   EAA Reservoir improvements needed
    The planned EAA Storage Reservoir and its connected Stormwater 
Treatment Area would be able to address the challenges outlined above--
if it was of adequate scale, and appropriately designed and constructed 
to alleviate toxic-algae discharges. However, we previously joined 
Sierra Club and Center for Biological Diversity in articulating 20 
major concerns \9\ about the current 16,000-acre configuration, 
including:
---------------------------------------------------------------------------
    \9\ https://everglades.org/wp-content/uploads/2020/05/EAA-Storage-
Reservoir_Final-EIS_Joint-Comments_Sierra-Club_Center-for-Biological-
Diversity_Friends-of-the-Everglades_02-24-20-3.pdf
---------------------------------------------------------------------------
    <bullet>  A 23-foot deep reservoir of nutrient-rich water could 
promote the same or more profound conditions that fuel Harmful Algal 
Blooms than those currently experienced by the estuaries.
    <bullet>  The 6,500-acre STA proposed for the EAA Storage Reservoir 
has not been proven adequate for water-quality treatment. Research from 
wetlands ecologist Dr. William J. Mitsch, director of Florida Gulf 
Coast University's Everglades Wetland Research Park, indicates the 
treatment wetlands in the STA are not sufficient to handle the 
anticipated volume of increased flows south from Lake Okeechobee.\10\
---------------------------------------------------------------------------
    \10\ https://www.sciencedirect.com/science/article/pii/
S2590290319300094
---------------------------------------------------------------------------
    <bullet>  While the planned EAA Storage Reservoir and STA provides 
some added relief to both the St. Lucie and Caloosahatchee estuaries, 
the reductions are relatively minor in comparison to those provided by 
already authorized projects. To re-establish stable health to these 
estuaries, greater reductions to significant high-volume discharges are 
needed.

    Studies indicate more land is needed in the Everglades Agricultural 
Area to address system-wide concerns by storing at least 1.2 million 
acre feet of water. In the absence of willing sellers among EAA 
landowners, the federal government should consider all reasonable 
alternatives that would eliminate discharges to the northern 
estuaries--including eminent domain if necessary. This is within the 
federal government's right \11\ so long as it complies with the Fifth 
Amendment requirement to provide ``just compensation'' to the owner. 
Moreover, using private property to protect the natural environment is 
a clear public use under the Fifth Amendment.
---------------------------------------------------------------------------
    \11\ Kirby Forest Indus., Inc. v. United States, 467 U.S. 1, 9 
(1984)
---------------------------------------------------------------------------
                     Environmental justice for all
    The decades-old push to stop polluted Lake Okeechobee discharges to 
the northern estuaries is sometimes painted by agricultural interests 
as an effort of ``coastal elites'' to protect their own interests. 
However, that assessment is misleading and overlooks critical 
stakeholders who fish in and live near waterways impacted by toxic 
algae blooms. Toxic-algae laced discharges from Lake Okeechobee harm 
subsistence fishermen along both estuaries. Airborne toxins are capable 
of reaching residents far from the shore. And, of course, the harm 
inflicted on our marine-dependent businesses impact workers at all 
socioeconomic levels.
    We thank you for your attention to Everglades restoration, water 
management and the emerging concerns that are intertwined with Harmful 
Algal Blooms.

    Mrs. Napolitano. And now I will again ask unanimous consent 
that the record of today's hearing remain open until such time 
as all our witnesses have provided answers to any questions 
posed to them that may be submitted to them in writing, and 
unanimous consent that the record remain open for 15 days for 
any additional comments and information submitted by Members or 
witnesses to be included in the record of today's hearing.
    And without objection, so ordered.
    I would like to thank all of you for being such great 
witnesses. We have learned a lot. And sure, there is 
contention. We hope we can somehow bring all of the parties 
together and make the Everglades the healthy treasure it is.
    The committee stands adjourned. Thank you very much.
    [Whereupon, at 12:34 p.m., the subcommittee was adjourned.]



                       Submissions for the Record

                              ----------                              


  Prepared Statement of Hon. Sam Graves, a Representative in Congress 
     from the State of Missouri, and Ranking Member, Committee on 
                   Transportation and Infrastructure
    Thank you, Chairwoman Napolitano, and thank you to our witnesses 
for being here today.
    Since the passage of the Comprehensive Everglades Restoration Plan 
in 2000, the Army Corps, in partnership with the State of Florida and 
the South Florida Water Management District, have worked diligently 
over the past 20 years to restore and protect one of our Nation's most 
unique ecological treasures.
    Over the course of this time, Congress has taken a keen interest in 
the restoration and preservation of the Everglades, with this Committee 
authorizing a number of new Everglades projects in recent WRDAs.
    With the development of WRDA 2020, we wanted to honor a commitment 
to review the Corps' work within Central and Southern Florida.
    I want to thank my colleagues--Congressmen Mast, Webster, and 
Spano--for their work on this important issue and I look forward to 
hearing the perspectives from our witnesses.
    Thank you, Chairwoman Napolitano. I yield back.

                                 <F-dash>
Advisory, ``Recommended Human Health Recreational Ambient Water Quality 
         Criteria or Swimming Advisories for Microcystins and 
 Cylindrospermopsin,'' U.S. Environmental Protection Agency, Office of 
  Water, EPA 822-F-19-001, May 2019, Submitted for the Record by Hon. 
                             Brian J. Mast
                                Summary
    EPA has released national recommendations for the Human Health 
Recreational Ambient Water Quality Criteria or Swimming Advisories 
(AWQC/SA) for Microcystins and Cylindrospermopsin. These recommended 
AWQC/SA accurately reflect the latest scientific knowledge on the 
potential human health effects from recreational exposure to these two 
cyanotoxins. Primary contact recreation is protected in water bodies at 
or below the recommended concentrations of microcystins and 
cylindrospermopsin.
    These recommendations are intended as guidance to states, 
territories and authorized tribes to consider when developing water 
quality standards. Alternatively, these recommendations can be used as 
the basis of swimming advisories for notification purposes in 
recreational waters to protect the public. States, territories and 
authorized tribes may also wish to consider using these recommendations 
as both water quality criteria and swimming advisory values.
                               Background
    Cyanobacteria, commonly called blue-green algae, are naturally-
occurring photosynthetic bacteria found in freshwater and marine 
ecosystems. Under certain environmental conditions, such as elevated 
levels of nutrients, warmer temperatures, still water, and plentiful 
sunlight, cyanobacteria can rapidly multiply to form harmful algal 
blooms (HABs). HABs have been reported in ambient waters in all states. 
As the cyanobacteria multiply, some of the cells can produce toxic 
compounds, known as cyanotoxins, which can be harmful to human and 
animal health. Microcystins and cylindrospermopsin are two types of 
toxins produced by cyanobacteria.
    During a HAB, the toxin concentration can rapidly increase and may 
become elevated before a visible bloom is observed. Elevated cyanotoxin 
concentrations in surface waters can persist after the bloom fades, so 
human exposures can occur even after the visible signs of a bloom are 
gone or have moved downstream. Exposure to elevated-levels of 
microcystins can potentially lead to liver damage; the kidneys and 
liver appear to be the primary target organs for cylindrospermopsin 
toxicity.
                    What are EPA's recommendations?
    The recommended AWQC/SA for microcystins and cylindrospermopsin 
consist of three components--magnitude, duration and frequency--that 
are considered protective of human health in recreational waters. In 
developing these recommendations, EPA incorporated the existing peer-
reviewed and published science on the adverse human health effects of 
these toxins, recreation-specific exposure parameters from the peer-
reviewed scientific literature and EPA's Exposure Factors Handbook 
using established criteria methodologies. EPA derived these recommended 
values based on children's recreational exposures because children can 
be more highly exposed compared to other age groups. The 
recommendations are also protective of older age groups.
    Water quality criteria recommendations are intended as guidance in 
establishing new or revised water quality standards. They are not 
regulations themselves. States and authorized tribes have the 
discretion to adopt other scientifically-defensible water quality 
criteria that differ from these recommendations. For use as swimming 
advisories, EPA envisions states and authorized tribes applying these 
recommendations in a similar manner as is currently done in their 
recreational water advisory programs.
    The recommended magnitude for both toxins is shown in the following 
table:

              Table. Recommended magnitude for cyanotoxins.
------------------------------------------------------------------------
            Microcystins                      Cylindrospermopsin
------------------------------------------------------------------------
8 mg/L                               15 mg/L
------------------------------------------------------------------------

                        Duration and Frequency:
    For both cyanotoxins, the recommended duration and frequency depend 
on their application as a water quality criterion or a swimming 
advisory.
    For application as a recreational water quality criterion, EPA 
recognizes that a single exceedance of the recommended magnitude does 
not necessarily indicate that the designated use is not attained. The 
recommended frequency and duration support the identification of a 
trend or pattern of elevated cyanotoxins that can be used to inform the 
evaluation of a waterbody. EPA recommends states use 10-day assessment 
periods, not a rolling 10-day period, over the course of a recreation 
season to evaluate ambient water body condition and recreational use 
attainment. The 10-day period links the water body assessment period to 
the adverse health effects observed from ingestion of the toxins over 
short-term exposures. If toxin concentrations are higher than the 
criterion magnitude during a 10- day assessment period, then that event 
should be considered an excursion from the recreational criteria. EPA 
recommends that when more than three excursions occur within a 
recreational season and that pattern reoccurs in more than one year, it 
is an indication the water quality has been or is becoming degraded and 
a water body may not be supporting the recreational use. EPA expects 
states and authorized tribes to indicate the number of years the 
pattern of degradation can occur and not impair the recreational use.
    As a basis for issuing a swimming advisory, EPA recommends the 
magnitude not be exceeded on any single day. This is consistent with 
the goal of a swimming advisory to provide prompt information to people 
who wish to use the water body for recreation. EPA also recommends that 
any exceedance of the recommended magnitude result in a swimming 
advisory being issued until the toxin concentration falls below the 
recommended magnitude.
                    Communicating risk to the public
    In 2017, EPA released an online communications toolbox to support 
states, tribes, territories, and local governments in developing, as 
they deem appropriate, their own risk communication materials about 
cyanobacterial blooms. It includes editable press release templates, 
social media posts and other quick references.
    EPA has also released infographics that states and communities can 
use to communicate basic information about HABs to the public. The 
infographics highlight how a HAB might affect both people and animals, 
and provide helpful information concerning how to identify and respond 
to a potential bloom. Two downloadable and printable versions of the 
infographic are available on the EPA's Cyanobacterial HABs website; one 
as a more detailed poster for display and another as an abbreviated 
handout. State, tribal and local governments may also customize the 
infographics by adding local information such as a logo, website 
address, email address and/or telephone number.
                   Where can I find more information?
    EPA has published the recommended AWQC/SA document, support 
documents and the Federal Register Notice online in the public docket 
(Docket ID No. EPA-HQ-OW-2016-0715), which can be accessed via the 
Agency's Recreational Water Quality Criteria website.
    You can also contact John Ravenscroft (202) 566-1101 or Lesley 
D'Anglada (202) 566-1125 for more information.

                                 <F-dash>
Hearing Transcript Excerpt, ``Water Resources Development Acts: Status 
    of Implementation and Assessing Future Needs,'' July 10, 2019, 
  Subcommittee on Water Resources and Environment of the Committee on 
  Transportation and Infrastructure, Submitted for the Record by Hon. 
                             Brian J. Mast

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                 <F-dash>
Letter of October 7, 2020, from Todd Hiteshew, Chair, Southeast Florida 
  Utilities Council, Submitted for the Record by Hon. Bruce Westerman
                                                   October 7, 2020.
Chairwoman Grace F. Napolitano and Ranking Member Bruce Westerman,
Subcommittee on Water Resources and Environment,
Committee on Transportation and Infrastructure, Washington, DC.

RE:  Hearing on Comprehensive Everglades Restoration Plan and Water 
Management in Florida

    Dear Chairwoman Napolitano and Ranking Member Westerman,
    I am submitting this letter on behalf of the Southeast Florida 
Utility Council (SEFLUC) regarding your recent September 24, 2020 
hearing on the Comprehensive Everglades Restoration Plan (CERP) and 
Water Management in Florida. SEFLUC represents potable water providers 
throughout South Florida serving over six million people. SEFLUC's 
mission is to provide a communications, networking, and support 
structure to allow member utilities to continue to provide superior-
quality water supply and wastewater management services to their 
customers in a cost-effective manner.
    CERP and the management of the Central and Southern Florida Project 
(C&SF) are of critical concern to SEFLUC members, as we rely on the 
operation of the regional water management system to maintain 
groundwater levels and control saltwater intrusion to meet the water 
needs of our communities. SEFLUC's members have been active 
participants in numerous water supply related issues in South Florida, 
including the ongoing development of the Lake Okeechobee System 
Operating Manual (LOSOM) 2022 process.
    SEFLUC shares the same goal of all stakeholders; for the 
development of operational protocols that will integrate Lake 
Okeechobee operations within the overall framework and multi-purpose 
objectives of the C&SF, CERP, and water supply planning pertaining to 
the Lower East Coast (LEC).
    The preservation of existing legal sources of water for water 
supply use is a bedrock foundation for implementation of CERP and has 
been acknowledged by Congress, the U.S. Army Corps of Engineers 
(Corps), the State of Florida, and the South Florida Water Management 
District (SFWMD) and has long been used as a premise for the enactment 
of the Water Resources Development Act of 2000 (WRDA 2000) and other 
Federal and State law and regulation. Maintaining existing legal uses 
of water is critical to the economic and environmental well-being of 
South Florida, and more importantly for the protection of the health, 
safety, and welfare of the people in our communities who rely on SEFLUC 
members to provide a clean and reliable supply of water. The system of 
surface water storage and conveyance comprising the C&SF is an 
essential part of assuring water supplies can be sustained. This system 
is a direct source of water for many in South Florida and it also 
creates an essential buffer to saltwater intrusion; a constant concern 
for SEFLUC members who rely on groundwater to meet the needs of their 
communities.
    Maintaining existing legal sources of water for all uses requires 
consideration of highly complex and ever-changing factors such as 
changes in rainfall, sea level rise, and structural and operational 
alterations to the system. WRDA 2000 and CERP were adopted based on the 
clear understanding that as CERP projects are implemented, existing 
legal sources of water would be maintained at the current levels and 
the SFWMD would continue to implement water supply planning and 
regulation as reflected in the WRDA 2000 Savings Clause. WRDA 2000 
Section 601(h)(5) provides in relevant part that ``Until a new source 
of water supply of comparable quantity and quality as that available on 
the date of enactment of this Act is available to replace the water to 
be lost as a result of implementation of the Plan, the Secretary and 
the non-Federal sponsor shall not eliminate or transfer existing legal 
sources of water, including those for . . . an agricultural or urban 
water supply . . .'' This legal guarantee has provided the foundation 
for water supply planning in South Florida over the last twenty years, 
and is paramount when considering modifications and alterations to the 
operation of the C&SF, particularly Lake Okeechobee, in assuring 
existing water supplies for communities can be maintained. Florida law 
likewise requires the SFWMD, as the local sponsor of CERP, to assure 
water available to existing legal users will not be diminished.
    Protecting existing legal sources of water for uses including 
public supply, is consistent with the goals of increasing water 
available to the Everglades or improving the quality of water in the 
C&SF system. In fact, when guided by the existing legal framework, 
sound science, and thoughtful deliberation, each of these objectives 
can be achieved in a complimentary fashion. However, focusing on one 
objective, to the detriment of another, can result in unintended 
consequences. In the case of existing legal sources of water available 
for public supply, system alterations eliminating or diminishing the 
ability or SEFLUC members to provide essential and critical water 
supplies to communities will be detrimental to those communities as 
well as potentially lead to other unintended environmental impacts, 
such as saline water intrusion. This is particularly the case when 
future rainfall patterns are uncertain and sea level rise is an 
increasing threat to coastal areas in South Florida.
    Thus, given the above, I request your future deliberations take 
these critical factors into account, in order to assure that a reliable 
water supply remains for the people of the Lower East Coast, while also 
meeting our shared goals of environmental protection and enhancement. 
Thank you for your consideration of these comments and SEFLUC members 
look forward to continuing to work with you on this important issue.
        Sincerely,
                                             Todd Hiteshew,
                        Chair, Southeast Florida Utilities Council.

                                 <F-dash>
  Letter of October 7, 2020, from Keith A. James, Mayor, City of West 
      Palm Beach, Submitted for the Record by Hon. Bruce Westerman
                                                   October 7, 2020.
Chairwoman Grace F. Napolitano and Ranking Member Bruce Westerman,
Subcommittee on Water Resources and Environment,
Committee on Transportation and Infrastructure, Washington, DC.

RE:  City of West Palm Beach Comments on September 24, 2020 Hearing on 
Comprehensive Everglades Restoration Plan and Water Management in 
Florida

    Dear Chairwoman Napolitano and Ranking Member Westerman,
    The City of West Palm Beach respectfully submits the following 
comments regarding your recent hearing on the Comprehensive Everglades 
Restoration Plan (CERP) and Water Management in Florida. The City is 
the largest municipality in Palm Beach County with more than 110,000 
residents. The City also operates a public water supply system that 
provides clean, safe, and cost-effective potable water to approximately 
150,000 residents of the City, the Town of Palm Beach, and the Town of 
South Palm Beach, and protecting its public water supply for the 
benefit of its citizens. The City is additionally committed to 
protecting environmentally sensitive features that are indirectly 
benefited by its water system. Our water system maintains water stages 
in Grassy Waters Preserve, a unique remnant of the Everglades that is 
an ecologically critical wetland habitat for various threatened and 
endangered species including the endangered Everglades Snail Kite. The 
City's water system also helps maintain the Minimum Flows and Levels 
for the Northwest Fork of the Loxahatchee River, a federally designated 
Wild and Scenic River.
    To ensure a safe, reliable, and environmentally sustainable water 
supply source, the City directly relies upon surface water from the 
Central and Southern Florida Project (C&SF). Given that this water 
supply is so essential to the City, both from a public health and 
safety and environmental perspective, we must remain vigilant when it 
comes to any changes that may impact our use of the regional system. 
This includes the development of operational protocols that will 
integrate Lake Okeechobee operations within the overall framework and 
multi-purpose objectives of the C&SF, CERP, and water supply planning 
in South Florida.
    The preservation of existing legal sources of water is a bedrock 
foundation for implementation of CERP, which has been acknowledged by 
Congress, the U.S. Army Corps of Engineers (Corps); the State of 
Florida, and the South Florida Water Management District (SFWMD) 
before, during and after the enactment of the Water Resources 
Development Act of 2000 (WRDA 2000) and other Federal and State laws 
and regulations. Maintaining our existing water supplies is critical 
not only to the economic and environmental well-being of South Florida, 
but also most importantly to protection of the health, safety, and 
welfare of the public which relies on our system to provide a clean and 
reliable supply of water. Though numerous public water suppliers rely 
on the surface water storage and conveyance of the C&SF, the City is 
particularly dependent on this surface water. Without it, we would not 
be able to assure water is available for the citizens that rely on us.
    Maintaining existing legal sources of water requires consideration 
of highly complex and ever-changing factors such as changes in 
rainfall, sea level rise, and structural and operational alterations of 
the system. WRDA 2000 and CERP were adopted based on the clear 
understanding that as CERP projects are implemented, existing legal 
sources of water would be maintained and SFWMD would continue to 
implement water supply planning and regulation as reflected in the WRDA 
2000 Savings Clause. WRDA 2000 Section 601(h)(5) provides in relevant 
part that ``Until a new source of water supply of comparable quantity 
and quality as that available on the date of enactment of this Act is 
available to replace the water to be lost as a result of implementation 
of the Plan, the Secretary and the non-Federal sponsor shall not 
eliminate or transfer existing legal sources of water, including those 
for . . . an agricultural or urban water supply . . .'' This legal 
guarantee has provided the foundation for water supply planning in 
South Florida over the last twenty years, and it is important that 
future modifications and alterations of the operation of the C&SF, 
particularly Lake Okeechobee, assure that existing water supplies be 
maintained. Florida law likewise requires SFWMD, as the local sponsor 
of CERP, to assure that water available to existing legal users will 
not be diminished.
    Protecting existing uses of water for public supply does not 
conflict with the goals of increasing water available to the Everglades 
or improving the quality of water in the C&SF system. In fact, when 
guided by the existing legal framework, sound science, and thoughtful 
deliberation, each of these objectives can be achieved in a 
complimentary fashion. However, focusing on one objective, to the 
detriment of another, can result in unintended consequences. In the 
case of existing uses of water available for public suppliers like the 
City, system alterations that eliminate or diminish critical water 
supplies have the potential to threaten the reliable water supplies 
that we all take for granted, and potentially lead to other unintended 
environmental impacts, such as saline water intrusion and the reduction 
in water available for our crucial environmental assets like Grassy 
Waters Preserve and the Loxahatchee River. This is particularly the 
case when future rainfall patterns are uncertain and sea level rise is 
an increasing threat to coastal areas in South Florida.
    Given these concerns, we request that your future deliberations 
regarding operations of the C&SF regional system, Lake Okeechobee, and 
implementation of CERP projects assure that sound science guide future 
decisions and that our existing water supplies are protected. Thank you 
for your consideration of these comments, and the City looks forward to 
continuing to work with you and all other interested parties.
        Sincerely,
                                            Keith A. James,
                                    Mayor, City of West Palm Beach.

                                 <F-dash>
   Letter of Supplemental Testimony of October 2, 2020, from Gary J. 
Ritter, Assistant Director of Government and Community Affairs, Florida 
                         Farm Bureau Federation
                                                   October 2, 2020.
Hon. Peter DeFazio,
Chairman,
Committee on Transportation and Infrastructure, U.S. House of 
        Representatives, Washington, DC.
Hon. Sam Graves,
Ranking Member,
Committee on Transportation and Infrastructure, U.S. House of 
        Representatives, Washington, DC.
Hon. Grace Napolitano,
Chair,
House T&I Subcommittee on Water Resources and Environment, Washington, 
        DC 20515.
Hon. Bruce Westerman,
Ranking Member,
House T&I Subcommittee on Water Resources and Environment, Washington, 
        DC.

RE:  The Comprehensive Everglades Restoration Plan and Water Management 
in Florida

    Dear Chairman DeFazio, Ranking Member Graves, Subcommittee Chair 
Napolitano and Ranking Member Westerman:
    On behalf of the Florida Farm Bureau Federation, I want to thank 
you for the opportunity to testify at the Transportation and 
Infrastructure Subcommittee on Water Resources and Environment on 
September 24, 2020. I would like to take this opportunity to expound 
upon the testimony and comments provided during the hearing.
                              EAA Program
    I spoke of the success of the EAA program in reducing phosphorus 
concentrations to the Everglades by an average of 57% during the last 
26 years, 32% higher than the goal of a 25% reduction annually. In the 
hearing, it was suggested ``they need to do better.'' The EAA BMP 
program is one of the most successful nutrient reduction programs in 
the nation, if not the world. Nutrient reductions cannot be born solely 
on the backs of farmers--it must to be a collective effort if it is to 
be a serious and effective one. This effort should necessarily include 
the federal government (which built the system), state government 
(which maintains the system) and local government (which is responsible 
for commercial and urban storm water).
                               Status Quo
    As to the question whether the status quo is acceptable, we offer 
the following clarification: To our knowledge, no one approves of the 
current interim LORS 08 Regulation Schedule. The current schedule was 
approved as an interim measure to lower the lake by 1\1/2\ feet to 
allow the needed repairs to the dike. This regulation schedule:
    <bullet>  causes excess discharges to the coastal estuaries;
    <bullet>  results in more frequent violations of the Minimum Flows 
and Levels established for the lake by the SFWMD;
    <bullet>  compromises navigation;
    <bullet>  is harmful to protected species; and
    <bullet>  compromises the water supply for existing legal users.

    These adverse impacts have been tolerated by all stakeholders while 
the interim LORS 08 schedule has been in effect to accommodate Herbert 
Hoover Dike (HHD) rehabilitation. Now, as the HHD repair is on the 
verge of completion, we support the development of a new regulation 
schedule that meets the congressionally authorized purposes for the 
lake and is more aligned with a schedule for a healthy lake; reduces 
harmful discharges; provides water for Everglades restoration, while 
improving the water supply of the region. In WRDA 2018, Congress 
directed the Corps to expedite the development of the new lake schedule 
concurrent with completion of the dike repairs. Therefore, we do not 
support a regulation schedule that will reduce the water supply of the 
region. We strongly believe that the $1 billion in HHD investments will 
allow a new regulation schedule to be developed to holistically meet 
all needs of Everglades restoration.
                       Lake Okeechobee Discharges
    No one wants to see harmful algal blooms in our waterways, and it 
seems the communities south of the Lake want the same water quality as 
those on the coast. We agree harmful algal blooms are not good, and we 
support the scientific research conducted nationwide and statewide to 
understand algal blooms. Irrespective of this research, we cannot 
ignore the current water supply and ecological realities, as this does 
nothing to actually identify and solve the problem. One of the false 
assumptions is that the only way to reduce or eliminate harmful algal 
blooms is to lower the Lake regulation schedule (even lower than the 
status quo of LORS08), and, in doing so, threaten the water supply for 
existing legal users. This is simply untrue and not supported by the 
science.
    The University of Florida Water Institute in their 2015 Independent 
Review titled ``Options to Reduce High Volume Freshwater Flows to the 
St. Lucie and Caloosahatchee Estuaries and Move More Water from Lake 
Okeechobee to the Southern Everglades'' outlined the following 
strategies on how to effectively reduce harmful discharges:
    <bullet>  Accelerate completion of existing approved projects;
    <bullet>  Provide water storage and treatment north of Lake 
Okeechobee;
    <bullet>  Provide additional water storage, treatment and 
conveyance south of Lake Okeechobee;
    <bullet>  Develop a strategic plan for the next increment of south-
of-lake storage, treatment and conveyance to pursue beyond CEPP to take 
advantage of new north-of-lake storage and treatment, and more closely 
meet the performance targets of both the estuaries and the Everglades 
ecosystem;
    <bullet>  Deep well disposal of excess flows; and
    <bullet>  Implement operational changes.

    This UF study concluded that a lower lake schedule results in more 
frequent and harmful discharges and suggests that the Army Corps of 
Engineers evaluate opportunities to hold more water in the lake.
    The National Academies of Science also reached the same conclusion 
in their report titled ``Progress Toward Restoring the Everglades--
Sixth Biennial Review--2016'' as demonstrated in the following 
quotations:
    <bullet>  ``The large impacts on water storage with just modest 
changes in the lake regulation schedule suggest that Lake Okeechobee is 
a central factor in future considerations of water storage.''
    <bullet>  ``The financial costs for raising the lake levels likely 
are negligible, aside from the costs of conducting an environmental 
impact statement and any enhanced costs of operations.''

    In summary, no one in the agricultural community wants harmful lake 
discharges to continue. However, we reject the false premise that 
lowering the lake regulation schedule will result in less harmful 
discharges. In fact, LORS08 lowered the lake and has resulted in 
increased discharges to the estuaries. We offer that there are 
numerous, more effective ways to eliminate harmful discharges as 
outlined by the University of Florida Independent Review. Moreover, we 
support the use of sound science in lieu of sound bites that do not 
reflect scientific nor water management reality.
                            Northern Storage
    The watershed north of Lake Okeechobee begins in Orlando and the 
upper Chain of Lakes. Nutrient loading to Lake Okeechobee and legacy 
nutrients in Lake Okeechobee from the north are a result of the Central 
and Southern Florida Flood Control System, urban development that comes 
with population growth, and past agricultural and urban land use 
practices. To accuse one sector for the presence of harmful algal 
blooms in Lake Okeechobee is incorrect, scientifically unfounded, and 
counterproductive. A combination of urban and agricultural Best 
Management Practices (BMPs), along with regional and sub-regional 
projects, are needed from all sectors including local, state and 
federal governments to meet CERP restoration goals.
    The Army Corps of Engineers has recently completed the Project 
Implementation Report for the Lake Okeechobee Watershed Restoration 
Plan (LOWRP) as part of CERP, which includes storage north of Lake 
Okeechobee. The LOWRP Recommended Plan increases water storage capacity 
in the watershed to improve Lake Okeechobee water levels, reduces the 
quantity and timing of regulatory discharges to the Caloosahatchee and 
St. Lucie estuaries, and enhances water supply. The vast majority of 
the benefits are derived from the plan's use of Aquifer Storage and 
Recovery Wells. The SFWMD is moving forward with the construction and 
operation of ASR wells utilizing the recommendations from the National 
Academies of Science.
    Modelling performed by the SFWMD demonstrates the implementation of 
the LOWRP, in conjunction with the completion of existing authorized 
Comprehensive Everglades Restoration Plan, reduces harmful discharges 
to the coastal estuaries by 80% while improving water supply in the 
region.
                                Closing
    The Florida Farm Bureau Federation along with all farmers and 
ranchers in south Florida are strong advocates for Everglades 
restoration and the protection of our coastal estuaries. However, we 
disagree with the false premise that the laudable goals of restoring 
our natural system and meeting the water supply needs of the region are 
mutually exclusive. In fact, Section 601(h) of WRDA 2000 states, ``The 
overarching objective of the Plan is the restoration, preservation, and 
protection of the South Florida ecosystem while providing for other 
water-related needs of the region, including water supply and flood 
protection.'' This section directs the Plan be implemented to ensure 
the protection of water quality in, the reduction of the loss of fresh 
water from, and the improvement of the environment of the South Florida 
Ecosystem. Implementation of the Plan also seeks to achieve and 
maintain the benefits to the natural system and human environment 
described in the Plan. We have confidence that the men and women in the 
Army Corps of Engineers and its local sponsor, the South Florida Water 
Management District, can implement this plan and the changes to the 
Lake Okeechobee Regulation schedule in a manner that achieves the 
mutually beneficial goals of restoration along with the enhancement of 
water supply and flood control for all south Floridians.
        Kind Regards,
                                            Gary J. Ritter,
            Assistant Director of Government and Community Affairs,
                                    Florida Farm Bureau Federation.

CC:   The Honorable Daniel Webster (FL-11)
      The Honorable Ross Spano (FL-15)
      The Honorable Brian Mast (FL-18)
      The Honorable Frederica Wilson (FL-24)
      The Honorable Debbie Mucarsel-Powell (FL-26)

                                 <F-dash>
    Letter of September 23, 2020, from the Energy Producing States 
                               Coalition
                                                September 23, 2020.
Chairman Peter A. DeFazio,
Committee on Transportation and Infrastructure,
Washington, DC.
Ranking Member Sam Graves,
Committee on Transportation and Infrastructure,
Washington, DC.

    Dear Chairman DeFazio and Ranking Member Graves:
    On behalf of the Energy Producing States Coalition (EPSC), which 
represents legislators from several states across the country, we write 
today to share our concerns with HR 8049 and an upcoming hearing before 
the Subcommittee on Water Resources and Environment scheduled for 
September 24th. It is our understanding that it will examine potential 
water management policy changes that we believe will be very harmful to 
a variety of industries, farm families, ranches and water supply for 
communities in the future.
    While the stated purpose of the hearing will be about Everglades 
water management in Florida, the potential ramifications and impact 
would be sweeping and felt far beyond one specific state. Our 
membership includes many Western states where very significant amounts 
of our land is federally-owned and managed. Water rights and supplies 
are critical for our states and we are very concerned when new federal 
powers are contemplated that could jeopardize the lifeblood of our 
economies. The precedents created by the contemplated changes of adding 
broad public health considerations to manage algal blooms--as proposed 
by HR 8049--would drastically alter the Army Corps of Engineers' 
critical federal mission of flood control, navigation and collaborative 
water management. In essence, this proposed legislation could create 
another Pandora's Box scenario of unintended consequences similar to 
the convoluted and controversial Waters of the U.S. (WOTUS) Rule that 
would make long-standing water management and permitting decisions 
unnecessarily and politically charged.
    As recent media reports have noted, this issue was raised and voted 
down in the Transportation and Infrastructure Committee's mark-up of 
the bipartisan reauthorization of the Water Resources Development Act 
(HR 7575) and was opposed by members of the Florida Congressional 
Delegation specifically because of the unknown and potentially harmful 
impacts it would have on water supplies and communities. Moreover, it 
is our understanding that the Corps of Engineers has explicitly stated 
in its planning documents which manage water flows in the Everglades 
that it lacks the expertise or authority to manage harmful algal blooms 
nor is there a federally authorized directive to address water quality 
when managing water releases from Lake Okeechobee.
    Now is not the time to add a new level of uncertainty to the well-
established water management process at the Corps--especially as our 
nation tries to recover from the harmful impacts of COVID-19 to our 
economy. We urge the Committee to oppose this legislation and not 
invite more trouble for our farmers, ranchers, homebuilders and 
neighbors that are struggling to recover. On behalf of EPSC, we 
appreciate the opportunity to share our perspective.
        Sincerely,
                                      Senator Chuck Winder,
                                                 Idaho, EPSC Chair.
                                      Senator Drew Perkins,
                                 Wyoming, EPSC Executive Committee.
                                Representative Steve Handy,
                                    Utah, EPSC Executive Committee.



                                Appendix

                              ----------                              


    Questions from Hon. Garret Graves to Hon. Chauncey P. Goss II, 
   Chairman, Governing Board, South Florida Water Management District

    Question 1. The CERP program requires that each project be 
individually studied by the Corps for authorization before it can 
receive a ``new start.'' How has the passage of CEPP changed delays in 
turning dirt?
    Answer. CEPP merged several CERP components into one large project. 
This combination of projects created efficiencies in planning and 
allowed for expedited design and construction of multiple CERP 
components. Though the authorization of CEPP in 2016 required separate 
validation reports for each of its three phases of CEPP, it only 
required one ``new start'' designation for the whole of CEPP. With the 
authorization of the CEPP Post Authorization Change Report (PACR), 
which included the EAA Reservoir and STA, in Sec. 1308 of WRDA 2018, 
the revised CEPP project could move forward quickly upon appropriation 
of funds.
    Unfortunately, the U.S. Army Corps of Engineers and the Assistant 
Secretary of the Army for Civil Works determined that the authorized 
CEPP PACR was a separate CERP project and not a revision of CEPP, 
therefore requiring a ``new start'' designation for the newly named EAA 
Reservoir Project. The EAA Reservoir Project is one of the most 
critical restoration projects for the Everglades and is a top priority 
for the State of Florida. This decision removed construction funds from 
the local U.S. Army Corps of Engineers District budget and impedes 
federal construction efforts until a ``new start'' designation is 
received. While two phases of CEPP construction move forward at a rapid 
pace, one cannot--stalling restoration progress.

    Question 2. Provisions in the ``master PPA'' for Everglades 
restoration also allow cross-crediting between other CERP projects. I 
know the Louisiana CPRA is extremely jealous of this arrangement. How 
does cross-crediting benefit the non-federal sponsor's ability to meet 
cost shares and move forward with restoration projects?
    Answer. The 2009 Master Agreement establishes a ``programmatic'' 
management of the 50-50 cost share balance for all CERP projects with a 
Project Partnership Agreement rather than trying to balance a ledger 
for each individual project as is the case with our other non-CERP 
projects. This type of management allows for flexibility in 
construction efforts, ensuring either the South Florida Water 
Management District or U.S. Army Corps of Engineers can move forward 
with design and construction as funds become available through either 
state or federal appropriations. This agreement expedites project 
components, taking advantage of shifts in available funding and 
leveraging the talent and workload of the partner agencies to achieve 
benefits sooner. It would be extremely beneficial to extend this 
programmatic cost share approach across the entire South Florida 
Ecosystem Restoration Program.

    Question 3. Congress has changed its internal processes since CERP 
was first authorized, constraining the ability to designate specific 
funding for projects and getting into several notable appropriations 
lapses. What else can Congress do to get out of the way and get these 
programs moving?
    Answer. Congress has been very intentional in its passing of WRDA 
bills since 2014. We appreciate this effort and encourage Congress to 
continue passage of these highly important water resource bills every 2 
years. In addition, the following actions would be of great benefit for 
this critical restoration program:
    <bullet>  Authorize a simple mechanism that allows the U.S. Army 
Corps of Engineers to provide funds directly to the non-Federal sponsor 
so it can implement or expedite projects.
    <bullet>  Authorize a programmatic ``new start'' designation for 
CERP to eliminate red tape and allow CERP projects to move directly 
from authorization to construction.
    <bullet>  Be aware that ``conditional authorizations'' often result 
in administrative process and reporting, such as the ``90 day report'' 
that took over 600 days for the Corps to complete. Authorize projects 
without conditions to prevent unnecessary delays to restoration and 
provide Congressional intent through other means.
    <bullet>  Continue to allow for flexible application of 
supplemental funding to expedite multipurpose projects such as Central 
and Southern Florida Project, CERP and other flood control components.
    <bullet>  Direct the Secretary to investigate a programmatic cost 
share approach that would include both CERP and non-CERP federal 
projects.
    <bullet>  Consider an amendment to Section 221 of the 1970 Flood 
Control Act to simplify and expedite the federal process for in-kind 
work.

 Questions from Hon. Garret Graves to Shannon Estenoz, Chief Operating 
Officer and Vice President of Policy and Public Affairs, The Everglades 
                               Foundation

    Question 1. I share your frustration with the Corps' rigidity, 
especially as that dogmatic approach results in negative impacts to 
ecosystems. I've had similar concerns for how assets in South Louisiana 
are used to manage the Mississippi to the determent of efforts for 
environmental restoration.
    Question 1.a.  Do you believe it's possible for the Corps to 
balance their mission sets and operate infrastructure for multiple 
benefits beyond the original authorized uses?
    Answer. The Corps cannot act beyond its Congressional authority, 
but the issue here is not with the Corps exceeding Congressional 
authority. Instead, the Corps exercises its considerable discretion not 
to use the broad authority Congress has given it to balance its mission 
sets and operate infrastructure for multiple benefits. The Corps 
regularly supplants and, I believe, frustrates Congressional intent (if 
not express direction) with its discretionary decision-making 
authority. In the Everglades, for example, we have found that the Corps 
rarely exercises its discretion to the benefit of the environment, 
fish, wildlife or water quality, if doing so comes at the expense of 
other authorized uses. This remains true despite the fact that such 
favored uses do not include or implicate public safety, and even when 
the risks to such uses cannot be demonstrated or are so small that any 
reasonable analysis would find the choice to avoid them unjustifiable. 
For decades, for example, the Corps' discretionary approach to managing 
Lake Okeechobee in the dry season has picked economic winners and 
losers and has benefitted one set of economic interests over the 
environment, including federal natural resource assets of national and 
international significance. These environmental assets are supposed to 
enjoy the highest level of federal protection. This lopsided, 
discretionary formula for dry season Lake Okeechobee operations has 
held even when the result increases risk to public health, a source of 
deep frustration and confusion for the citizens of Florida's southwest 
and Treasure coasts. Most frustratingly, the Corps' approach threatens 
to hold even when Congress directed the Corps to revisit its operating 
rules in 2018, 30 years into an era when the value of the Everglades is 
known and undisputed, when public support for its protection has never 
been higher, and when the economy of the state relies more on its 
survival than ever before. The Corps does not lack the authority to 
protect the Everglades or to rebalance risks and benefits to authorized 
uses; rather, it simply regularly fails to exercise its authorized 
discretion to do so.

    Question 1.b.  If the Corps were able to operate its structures in 
Central Florida for multiple purposes--what would the benefits be?
    Answer. The Corps can and should operate its structures for 
multiple purposes to more equitably share the benefits and risks 
associated with water management infrastructure, including Lake 
Okeechobee. In particular, if the Corps' operating rules included 
provisions allowing the Corps to meet the water-related needs of the 
downstream Everglades, more water could flow south during the early dry 
season, which can help reduce the risk of wildfires that threaten the 
Everglades--including Everglades National Park--protect habitat for 
endangered species, enhance recreational opportunities, and reduce 
drought risk for tribal lands. Greater flexibility to meet Everglades 
dry season demands can also improve the resilience of the Biscayne 
Aquifer, the primary drinking water source for millions of people along 
Florida's lower east coast.
    More balanced risks and benefits can be gained by operating 
existing infrastructure more flexibly, and can be maximized by building 
new infrastructure. We understand that with more places to store water, 
and more capacity to clean and move water, there will be more water 
overall to meet the needs of the natural system and human uses. New 
infrastructure is what Everglades restoration is all about. The 
existence of authority to build new infrastructure, however, does not 
absolve or constrain the Corps' existing authorities in ways that 
prevent it from balancing authorized uses consistent with existing 
authorities. I believe the Corps currently has the ability to operate 
its structures for multiple purposes; in fact, I believe its existing 
authorities require that it does so. The question is whether the Corps 
will more flexibly exercise its discretion within those authorities in 
an effort to even out the trade-offs that have been established by the 
current operating rules.

    Question 2. Your testimony notes that this rigidity is limiting the 
potential positive outcomes from the revision of the Lake Okeechobee 
Systems Operating Manual. What will the negative impacts of this 
revision be if the Corps does not assess opportunities to send water to 
the Everglades?
    Answer. The cost of inaction is tremendous. If the Corps does not 
take the opportunity to revise its approach to lake management, 
Florida's environment and economy will continue to suffer. Because of 
the way the system is managed today, the Everglades experiences varying 
degrees of harm on a regular basis. In cases of soil loss, seagrass 
die-off, tree island loss, loss of micro-topography, and delayed 
recovery of threatened and endangered species, the harm experienced is 
long-lasting or permanent. When the Everglades suffers permanent harm, 
it means that the baseline for restoration is shifting--permanent 
ecological loss in the Everglades eats into the benefits Congress can 
expect the system to receive from restoration investments. The Corps 
has existing operational authorities that can reduce recurring harm in 
the Everglades and for economic sectors that suffer when the Everglades 
suffers. The revision of the Lake Okeechobee Systems Operating Manual, 
authorized in 2018, provides an opportunity for the Corps to assess 
options for sending more water south to the Everglades, particularly 
during the early dry season. Doing so will provide dry season benefits 
to the central and southern Everglades and Biscayne Aquifer, and reduce 
wet season risk for the northern estuaries and the Herbert Hoover Dike. 
Assessing the need for beneficial flows to the Everglades as a water 
management tool, and not just as a restoration goal, would be a 
paradigm shift for the Corps and for a broad range of South Florida 
stakeholders, including Everglades National Park.

    Question 3. Do you believe that the Corps should only revisit their 
Operating Manuals with express direction from Congress?
    Answer. No. Under the broad authority granted by Congress, the 
Corps has the inherent authority to revisit its operating manuals as 
needed. It is incumbent on the Corps to continuously evaluate how its 
infrastructure and operations are impacting the multiple uses it is 
authorized to serve, and look for opportunities to minimize lopsided 
trade-off scenarios. This is particularly true in cases where the 
Corps' discretionary actions are benefiting a small number of users, 
but causing repetitive, measurable harm to a large number of people and 
the environment, including federally protected lands, waters, and 
species.


                                [all]
                                    
</pre></body></html>
